App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRITTANY A. BILLETTS,
an individual; et al.,
Plaintiffs-Appellants,
v.

No. 19-56398
D.C. No.
5:19-cv-01026-AB-PLA
MEMORANDUM*

MENTOR WORLDWIDE, LLC; (Filed Feb. 5, 2021)
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Andre Birotte, Jr., District Judge, Presiding
Submitted February 3, 2021** Pasadena, California
Before: GOULD, OWENS, and VANDYKE, Circuit
Judges.
Plaintiffs appeal from the district court’s judgment dismissing their action alleging state law claims
arising out of injuries they suffered after the implantation of MemoryGel Silicone Breast Implants manufactured by Mentor Worldwide, LLC (“Mentor”). The
breast implants at issue are a Class III medical device
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
approved by the Federal Drug Administration (“FDA”)
under the pre-market approval process of the Medical
Device Amendments (“MDA”) to the Food, Drug, and
Cosmetic Act (“FDCA”). We review de novo a district
court’s denial of a motion to remand Canela v. Costco
Wholesale Corp., 971 F.3d 845, 849 (9th Cir. 2020). We
review de novo a district court’s dismissal for failure to
state a claim pursuant to Federal Rule of Civil Procedure 12(b)(6), and for abuse of discretion the denial of
leave to amend. Curry v. Yelp Inc., 875 F.3d 1219, 1224
(9th Cir. 2017). As the parties are familiar with the
facts, we do not recount them here. We affirm.
1. The district court properly denied Plaintiffs’
motion to remand. Mentor’s removal was timely under
28 U.S.C. § 1446(b)(3) because the deposition transcript
of Scott Mraz revealed sufficiently new information
about NuSil, LLC (“NuSil”) to trigger the removal. See
Fritsch v. Swift Transp. Co. of Ariz., LLC, 899 F.3d 785,
789 (9th Cir. 2018); Carvalho v. Equifax Info. Servs.,
LLC, 629 F.3d 876, 887 (9th Cir. 2010).
The district court properly determined that NuSil
was fraudulently joined, and therefore diversity jurisdiction existed. Fraudulent joinder may be established
“if a defendant shows that an ‘individual[ ] joined in the
action cannot be liable on any theory.’ ” Grancare, LLC
v. Thrower ex. rel. Mills, 889 F.3d 543, 548 (9th Cir.
2018) (citation omitted). “Fraudulent joinder must be
proven by clear and convincing evidence.” Hamilton
Materials, Inc. v. Dow Chem. Corp., 494 F.3d 1203, 1206
(9th Cir. 2007). Based on Mraz’s deposition testimony
and the amended Statement of Information, Mentor

App. 3
showed by clear and convincing evidence that NuSil
was not involved in manufacturing or supplying the
silicone used in Mentor’s allegedly defective implants,
and thus there was no possibility Plaintiffs could recover against NuSil. See DiCola v. White Brothers Performance Prods., Inc., 69 Cal. Rptr. 3d 888, 897 (Ct.
App. 2008).
2. The district court also properly dismissed
Plaintiffs’ state law claims as preempted by the MDA.
The MDA expressly preempts state law claims unless
they are premised on a “parallel” federal requirement.
See 21 U.S.C. § 360k(a); Riegel v. Medtronic, Inc., 552
U.S. 312, 330 (2008). Even if a state law claim is not
expressly preempted by the MDA, it may be impliedly
preempted. See 21 U.S.C. § 337(a); Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 352-53 (2001).
Thus, to escape preemption, a state law claim must fit
through a “narrow gap”: “The plaintiff must be suing
for conduct that violates the FDCA (or else his claim is
expressly preempted by § 360k(a)), but the plaintiff
must not be suing because the conduct violates the
FDCA (such a claim would be impliedly preempted under Buckman).” Perez v. Nidek Co., Ltd., 711 F.3d 1109,
1120 (9th Cir. 2013) (citation omitted).
Plaintiffs’ failure to warn claims are primarily
based on Mentor’s alleged failure to report adverse
events related to its MemoryGel Silicone Breast Implants to the FDA. In states that recognize failure to
report claims, such as California, a manufacturer’s failure to report adverse events to the FDA can form the
basis of a parallel claim that survives preemption. See

App. 4
Stengel v. Medtronic Inc., 704 F.3d 1224, 1233 (9th Cir.
2013) (en banc); Coleman v. Medtronic, Inc., 167 Cal.
Rptr. 3d 300, 311-12 (Ct. App. 2014).
Here, however, Plaintiffs fail to allege actual adverse events that Mentor did not report to the FDA.
Rather, Plaintiffs speculate that if Mentor had conducted its post-approval studies differently (e.g., increased follow-up with participants), then Mentor
would have identified additional adverse events that
it would have reported to the FDA. These conclusory
and speculative allegations are insufficient to state
a parallel failure to warn claim. See Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). Moreover, to the
extent Plaintiffs base their failure to warn claims on
Mentor’s alleged failure to properly conduct the postapproval studies, Plaintiffs’ claims are impliedly preempted because Plaintiffs do not identify a parallel
state law duty to conduct post-approval studies. In addition, to the extent Plaintiffs argue that Mentor failed
to warn them or their doctors directly, such claims are
preempted because there are no such federal requirements. See Stengel, 704 F.3d at 1234 (Watford, J., concurring).
For their manufacturing defect claims to survive
express preemption under the MDA, Plaintiffs must
allege that Defendants “deviated from a particular premarket approval or other FDA requirement applicable
to the Class III medical device.” Weber v. Allergan, Inc.,
940 F.3d 1106, 1112 (9th Cir. 2019). They “cannot
simply demonstrate a defect or a malfunction and rely
on res ipsa loquitur to suggest only . . . that the thing

App. 5
speaks for itself.” Id. (citation and internal quotation
marks omitted).
Here, Plaintiffs fail to allege that Defendants violated a particular FDA requirement. For example,
Plaintiffs vaguely allege that Mentor’s MemoryGel Silicone Breast Implants contained unidentified materials that differed from those approved by the FDA.
Further, Plaintiffs’ mere allegations “suggesting that
[their] particular breast implant[s] w[ere] defective
do[ ] not show that [Defendants] failed to comply with
the FDA’s Current Good Manufacturing Practices.” Id.
at 1114.
While we are sympathetic to Plaintiffs’ health
problems, they have not sufficiently alleged a state law
claim that squeezes through the “narrow gap” to escape MDA preemption. Perez, 711 F.3d at 1120 (citation omitted).
3. Finally, the district court did not abuse its discretion by dismissing Plaintiffs’ action without leave to
amend based on its determination that any amendment would be futile. See Ebner v. Fresh, Inc., 838 F.3d
958, 968 (9th Cir. 2016).
AFFIRMED.

App. 6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
BRITTANY BILLETTS
et al;

Case No.
ED CV 19-01026-AB (PLAx)

ORDER DENYING
PLAINTIFFS’ MOTION
v.
TO REMAND AND
MENTOR WORLDWIDE, GRANTING DEFENDLLC; NUSIL, LLC; NUSIL ANTS’ MOTIONS
TECHNOLOGY, LLC;
TO DISMISS
and DOES 1-100, inclusive.
(Filed Aug. 27, 2019)
Defendant.
Plaintiffs,

Before the Court are two motions filed by the parties.
On June 12, 2019 Defendants Mentor Worldwide,
LLC. (“Mentor”), NuSil LLC., and NuSil Technology
LLC (“NuSil”) filed a motion to dismiss (Dkt. No. 10).
Plaintiffs Brittany Billets, Vivian Aguiar, Ann Delmonico, Cornelia Ditto and Leah Johnson (“Plaintiffs”) opposed the motion (Dkt. No. 20).
Plaintiffs filed a Motion to Remand (Dkt. No. 16)
and Defendants opposed the motion (Dkt. No. 18). The
Court deemed the matter appropriate for resolution
without oral argument, see Local Rule 7.15, and took
the matter under submission on August 14, 2019. For
the following reasons, Plaintiffs’ Motion to Remand is
DENIED and Defendants’ Motions to Dismiss is
GRANTED.

App. 7
I.

BACKGROUND

This lawsuit revolves around injuries Plaintiffs
allegedly suffered after receiving surgical implants of
Mentors’ MemoryGel Silicone Breast Implants (“MemoryGel Implants”). Plaintiffs plead the following in
their Complaint (“Compl.,” Dkt. No. 1, Exhibit A).
A. The Parties
Billets is a citizen and resident of San Bernardino
County, California. Compl. ¶ 1. Aguiar is a citizen and
resident of Miami-Dade County, Florida. Id. ¶ 2. Delmonico is a citizen and resident of Newport County,
Rhode Island. Id. ¶ 3. Ditto is a citizen and resident of
Seminole County, Florida. Id. ¶ 4. Johnson is a citizen
of Lee County, Mississippi. Id. ¶ 5.
Mentor is a limited liability company incorporated
in Delaware with its principal place of business in
Santa Barbara, California. Id. ¶ 6. Mentor manufactured the MemoryGel Implants at issue. Id. ¶ 7.
NuSil LLC is a limited liability company incorporated in California with its principal place of business
in Carpinteria, California. Id. ¶ 8.
NuSil Technology, LLC is a limited liability company incorporated in Delaware with its principal place
of business in Carpinteria, California. Id. ¶ 9. NuSil
LLC and NuSil Technology are silicone raw material
suppliers and allegedly manufactured, produced, supplied, and shipped the silicone used in the MemoryGel
Implants. Id. ¶11.

App. 8
B. FDA Regulation of Silicone Breast Implants
In 1976, Congress passed the Medical Device
Amendments (“MDA”) to the Federal Food, Drug, and
Cosmetic Act (“FDCA”). Id. ¶ 41. Under the MDA, medical devices, such as the MemoryGel Implants, are subject to three classifications and regulated accordingly.
Id. ¶ 42. Class I devices require the least and most general oversight, Class II devices are reviewed according
to more stringent “special controls,” and Class III devices receive the most oversight and require rigorous
premarket review and approval. Id. The Food and
Drug Administration (“FDA”) classified silicone breast
implants as Class III devices. Id. ¶ 43. Accordingly, the
FDA requires manufacturers to meet certain requirements for Class III devices. Id. On April 10, 1991, the
FDA published a final regulation under Section 515(b)
of the FDCA requiring that manufacturers of silicone
breast implants submit pre-market approval (“PMA”)
applications with data showing a reasonable assurance of safety and effectiveness of the implants by July
9, 1991. Id. ¶ 44.
C. Mentor’s FDA Approval
In order to eventually seek PMA for its MemoryGel Implants, Mentor was required to first provide the
FDA with sufficient information regarding the safety
and efficacy of the medical device. Id. ¶ 51. On December 12, 2003, Mentor submitted a request to the FDA
for PMA for its MemoryGel Implants. Id. ¶ 67. On

App. 9
November 17, 2006, Mentor received approval subject
to certain conditions. Id. ¶¶ 68. One of the conditions
imposed on Mentor required it to conduct six postapproval studies1 to further characterize the safety
and effectiveness of MemoryGel Implants. Id. ¶ 68.
D. Plaintiffs’ MemoryGel Procedures
Billets was implanted with MemoryGel Implants
on August 15, 2013. Id. ¶ 21. Billets alleges that following implantation she experienced fatigue, muscle pain,
muscle weakness, joint pain and swelling, vision issues, light sensitivity, numbness, skin rashes, dizziness,
nausea, memory loss, shortness of breath, cognitive
dysfunction, chest pain, migraines, silicone toxicity,
night sweats, and hair loss. Id. ¶ 22. On May 26, 2017,
Billets was diagnosed with a rupture of her right
breast implant. Id. ¶ 23.
Aguiar was implanted with MemoryGel Implants
on September 8, 2016. Id. ¶ 24. Following implantation, Aguiar developed a number of illnesses and symptoms, including, among other things, pain and swelling
of the breasts, seromas, and muscle pain. Id. ¶ 25. On
February 15, 2018, Aguiar underwent an explantation
of her implants. Id. ¶ 26. A gel bleed/rupture of Aguiar’s
right implant was discovered during the procedure. Id.

1

The FDA required Mentor to conduct: the core study, the
large post-approval study, the device-failure study, the focusgroup study, the informed-decision study, and the adjunct study.
Id. ¶ 69.

App. 10
After explantation, various defects were found within
Nunn’s right breast implant. Id. ¶ 27.
Delmonico was implanted with MemoryGel Implants on July 22, 2010. Id. ¶ 28. Following implantation, Solano developed a number of illnesses and
symptoms., including, among other things, pain and
swelling of the breast, seromas, joint pain, swelling,
stiffness and fatigue, muscle pain and weakness,
memory loss, shortness of breath, cognitive dysfunction, migraines, chest pains, chronic sore throats, itching, nausea, dizziness, numbness in her extremities,
issues with her vision, skin rashes, light sensitivity, silicone toxicity, night sweats, and hair loss. Id. ¶ 29. On
April 28, 2017, Delmonico underwent an explantation
of her implants. Id. ¶ 30. After explantation, various
defects were found within Delmonico’s right breast implant. Id. ¶ 31.
Ditto was implanted with MemoryGel Implants on
October 9, 2007. Id. ¶ 32. Following implantation, Watson began to experience, among other things, pain and
swelling of the breasts, seromas, fatigue, joint pain,
swelling and stiffness, muscle pain and weakness, and
migraines. Id. ¶ 33. On October 12, 2017, Ditto underwent a bilateral explantation of her implants. Id. ¶ 34.
A gel bleed/rupture was discovered during the procedure. Id. After explantation, various defects were
found within Watson’s right breast implant. Id. ¶ 35.
Johnson was implanted with MemoryGel Implants on September 2, 2010. Id. ¶ 36. Following the
implantation, Johnson began to experience, among

App. 11
other things, fatigue, cognitive dysfunction, muscle
pain and weakness, joint pain and soreness, dry skin,
dry eyes, easy bruising and slow healing wounds,
shortness of breath, metallic taste, night sweats, skin
rashes, insomnia, swollen and tender lymph nodes in
the breast area, numbness, chest pain, fevers, chronic
neck and back pain, light sensitivity, vision issues, migraines, chest inflammation, and hair loss. Id. ¶ 37. On
October 20, 2017, Johnson underwent a bilateral explantation. Id. ¶ 38. A gel bleed/rupture was discovered. Id. After explantation, various defects were found
within Johnson’s right breast implant. Id. ¶ 39.
E. This Action
On February 22, 2019, Plaintiffs filed a complaint
in the Los Angeles County Superior Court asserting
causes of action for: (1) negligence/negligence per se;
(2) failure to warn; and (3) manufacturing defect. On
June 5, 2019, Mentor filed a notice of removal in this
Court and then filed a motion to dismiss Plaintiffs’
complaint pursuant to Federal Rule of Civil Procedure
12(b)(6). Plaintiffs filed a motion to remand.
II.

LEGAL STANDARD
A. Motion to Dismiss Under 12(b)(6)

Federal Rule of Civil Procedure 8 requires a plaintiff to present a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). Under Rule 12(b)(6), a defendant may
move to dismiss a pleading for “failure to state a claim

App. 12
upon which relief can be granted.” Fed. R. Civ. P.
12(b)(6).
To defeat a motion to dismiss under Rule 12(b)(6),
the complaint must provide enough details to “give
the defendant fair notice of what the . . . claim is and
the grounds upon which it rests.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). The complaint must
also be “plausible on its face,” allowing the court to
“draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). “The plausibility standard is not
akin to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted unlawfully.” Id. at 678. Labels, conclusions, and “a formulaic recitation of the elements of a cause of action will
not do.” Twombly, 550 U.S. at 555.
When ruling on a Rule 12(b)(6) motion, “a judge
must accept as true all of the factual allegations contained in the complaint.” Erickson v. Pardus, 551 U.S.
89, 94 (2007). But a court is “not bound to accept as
true a legal conclusion couched as a factual allegation.”
Iqbal, 556 U.S. at 678 (internal quotation marks omitted).
B. Leave to Amend
Should a court dismiss certain claims, “[l]eave to
amend should be granted unless the district court ‘determines that the pleading could not possibly be cured
by the allegation of other facts.’ ” Knappenberger v. City
of Phoenix, 566 F.3d 936, 942 (9th Cir. 2009) (quoting

App. 13
Lopez v. Smith, 203 F.3d 1122, 1127 (9th Cir. 2000) (en
banc)); see also Knevelbaard Dairies v. Kraft Foods,
Inc., 232 F.3d 979, 983 (9th Cir. 2000) (“An order granting such a motion must be accompanied by leave to
amend unless amendment would be futile”).
C. Removal
Federal courts are courts of limited jurisdiction
and possess only that jurisdiction as authorized by the
Constitution and federal statute. Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994). Under
28 U.S.C. § 1441(a), a party may remove a civil action
only if the district court has original jurisdiction over
the issues alleged in the state court complaint. There
is a strong presumption that the Court is without jurisdiction until affirmatively proven otherwise. See
Fifty Assocs. v. Prudential Ins. Co. of America, 446 F.2d
1187, 1190 (9th Cir. 1970). When an action is removed
from state court, the removing party bears the burden
of demonstrating that removal is proper. Gaus v. Miles,
Inc., 980 F.2d 564, 566 (9th Cir. 1992).
Under the diversity statute, 28 U.S.C. § 1332, a
federal district court has original jurisdiction when the
parties are completely diverse and the amount in controversy exceeds $75,000. See 28 U.S.C. § 1332. Pursuant to 28 U.S.C. § 1441(a) and (b), a defendant may
remove an action from state court to federal court if the
diversity and amount in controversy requirements are
satisfied.

App. 14
A non-diverse party may be disregarded for purposes of determining whether jurisdiction exists if the
court determines that the party’s joinder was “fraudulent” or a “sham.” Ritchey v. Upjohn Drug Co., 139 F.3d
1313, 1318 (9th Cir. 1998). “Fraudulent joinder” occurs,
for the purpose of determining diversity jurisdiction,
where the plaintiff fails to state a cause of action
against the resident defendant, and the failure is obvious according to settled rules of the state. McCabe v.
Gen. Foods Corp., 811 F.2d 1336 (9th Cir. 1987). “But if
there is a possibility that a state court would find that
the complaint states a cause of action against any of
the resident defendants, the federal court must find
that the joinder was proper and remand the case to the
state court.” Grancare, LLC v. Thrower by & through
Mills, 889 F.3d 543, 548 (9th Cir. 2018) (quotations
omitted).
The defendant has a high burden of proof when
establishing fraudulent joinder. A removing defendant
may present evidence to prove fraudulent joinder, but
the district court must resolve all disputed questions
of fact in the plaintiff ’s favor. See Grancare, 889 F.3d
at 549. Thus, a defense should not require “a searching
inquiry into the merits of the plaintiff ’s case, even if
that defense, if successful, would prove fatal.” Id. In
this regard, “[r]emand must be granted unless the defendant shows that the plaintiff would not be afforded
leave to amend his complaint to cure [a] purported deficiency” in its allegations against the non-diverse defendant. Padilla v. AT & T Corp., 697 F. Supp. 2d 1156,
1159 (C.D. Cal. 2009) (quotations omitted). Ultimately,

App. 15
“[f ]raudulent joinder must be proven by clear and convincing evidence.” Hamilton Materials, Inc. v. Dow
Chem. Corp., 494 F.3d 1203, 1206 (9th Cir. 2007).
III. DISCUSSION
A. The Court Has Subject Matter Jurisdiction
This dispute raises two issues concerning the
Court’s subject matter jurisdiction. First, Plaintiffs
argue Mentor’s Notice of Removal is untimely. Additionally, Defendants contend that complete diversity2
exists because NuSil LLC, a California corporation, is
fraudulently joined. The Court addresses each argument in turn.
1. Mentor’s Removal Was Timely
Plaintiffs first argue that Mentor’s removal was
untimely and improper because it was not based on
new grounds or new information. “[A] notice of removal
may be filed within 30 days after receipt by the defendant, through service or otherwise, of a copy of an
amended pleading, motion, order or other paper from
which it may first be ascertained that the case is one
which is or has been removable.” 28 U.S.C. 1446. The
thirty-day period applies even to cases which have
been previously been removed and remanded, so long
2

There is no federal question jurisdiction in this matter as it
does not touch upon any area of federal law. Thus this Court only
has jurisdiction if all the requirements of diversity jurisdiction
are satisfied.

App. 16
as the latter removal is “based on information not
available at the prior removal.” See Sweet v. United
Parcel Serv., Inc., 2009 WL 1664644 at * 3 (C.D. Cal.
June 15, 2009) (permitting subsequent removal and
denying motion to remand).
Mentor’s successive removal was timely and
proper. On May 9, 2019, Edward Scott Mraz, a member
of NuSil LLC since August 1, 2005, was deposed. See
Mentor Notice of Removal (Dkt. No. 1). Mraz testified,
among other things, that NuSil was a holding company
and had no involvement in the manufacturing of the
implants.3 Plaintiffs argue Mraz’s deposition did not
reveal additional facts to permit successive removal.
To the contrary, Mraz’s statements provided further
clarity regarding the status of NuSil LLC and its lack
of involvement in the production of the silicone used in
Mentor’s MemoryGel Implants. After Mraz’s deposition, Defendants timely removed on the basis of this
new information. Accordingly, removal was timely and
the Court’s inquiry ends there.
2. NuSil LLC is Fraudulently Joined
Plaintiffs also assert there is not complete diversity of citizenship because NuSil LLC and Billets are
both California citizens. In their Complaint, Plaintiffs
aver that NuSil LLC manufactured a defective component of Mentor’s implants. In response, Mentor contends NuSil LLC was fraudulently joined in the action.
3

The substance of Mraz’s deposition is discussed below.

App. 17
In a product liability action, a plaintiff must establish “that the defendant produced, manufactured, sold,
or was in some way responsible for the [defective] product.” Garcia v. Joseph Vince Co., 84 Cal. App. 3d 868,
874 (1984) (quotations omitted). Mentor argues that
NuSil LLC was not involved with the production of the
silicone used in its MemoryGel implants. Specifically,
Mentor argues NuSil LLC is a holding company with
no operations, and thus could not have participated in
the manufacture of Mentor’s allegedly defective implants. In support of this argument, Mentor submitted
to the Court the Declaration of Scott Mraz (“Mraz
Decl.”, Dkt. No. 1-9). Mr. Mraz declares that NuSil LLC
(1) is a holding company that transacts no business of
its own and whose sole purpose is to hold stock for its
members; (2) has not developed, designed, manufactured, supplied, or distributed any products, including
the silicone or silicone gel used to manufacture breast
implants; and (3) has no ownership interest in or control over the plant, equipment, and supplies that are
used to manufacture the silicone raw materials used in
breast implants. See Mraz Decl. ¶¶ 4-5, 13-14. Plaintiffs also deposed Mr. Mraz. Under oath, Mr. Mraz confirmed that NuSil LLC is an investment holding
company that played no role in producing or supplying
any products used in the manufacture of breast implants. (See Deposition of Scott Mraz (“Mraz Dep.”)
Billets produces evidence contrary to Mr. Mraz’s
position and suggests there is a triable issue. In 2013,
NuSil LLC filed a Statement of Information with the
Secretary of State of California. The Statement of

App. 18
Information is a short, two-page document which identifies NuSil LLC as a “Manufacturer of Silicone Products”. Mraz signed that Statement of Information as
CFO/President of NuSil. Under oath, Mraz testified
that he would have reviewed the document for accuracy before signing.
Mentor claims that the 2013 Statement of Information contained a clerical error and points out that
NuSil has since filed an amended statement of information wherein it describes itself as an “Investment
holding entity.” Mentor argues this corrected Statement of Information “conclusively resolve[s]” the factual dispute this Court previously addressed in a
related matter.4
After a review of the amended Statement of Information and Mr. Mraz’s testimony at deposition, the
Court concludes that NuSil LLC did not manufacture
silicone and was not involved in the development of
the MemoryGel Implant. NuSil is not a proper defendant in this lawsuit as there is no possibility that
Plaintiff could recover under a theory of product liability against NuSil LLC.
B. Motion to Dismiss
In support of their motions to dismiss, Defendants
argue that Plaintiffs’ state-law claims are expressly and
impliedly preempted by the MDA. Because Plaintiffs’
4

See Vieira v. Mentor Worldwide, LLC, et al., No. 2-18-cv06502-AB (PLAx) (C.D. Cal. Aug. 23, 2018)

App. 19
claims against Mentor are preempted by the MDA,
Mentor’s motion to dismiss is GRANTED.
1. There Is No Presumption Against
Preemption That Applies Here
The Supremacy Clause of the Constitution provides that federal law preempts state law. Art. VI. cl. 2.
However, preemption analysis starts with the assumption that state laws are not preempted unless it was
intended by Congress. Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 230 (1947). Thus, legislative intent is the
“ultimate touchstone” of preemption analysis. Retail
Clerks v. Schermerhorn, 375 U.S. 96, 103 (1963). Congress’ intent to preempt state law may be expressed
in the statute’s language or implied in its statutory
framework Cipollone v. Liggett Group, Inc., 505 U.S.
504 (1992) (quoting Jones v. Rath Packing Co., 430 U.S.
519, 525 (1977)). When there is an express preemption
provision, the court does “not invoke any presumption
against pre-emption but instead ‘focus[es] on the plain
wording of the clause, which necessarily contains the
best evidence of Congress’ pre-emptive intent.’ ” Puerto
Rico v. Franklin Cal. Tax-Free Trust, 136 S. Ct. 1938,
1946 (2016) (quoting Chamber of Commerce of U.S. v.
Whiting, 536 U.S. 582, 594 (2011)).
Here, Plaintiffs claim Mentor’s motion does not
overcome this presumption against preemption because
Mentor failed to establish that Congress intended to
bar redress for injuries caused by Defendants’ FDA violations. The Supreme Court in Puerto Rico found that

App. 20
where there is an express preemption provision there
is no presumption against preemption. 136 S. Ct. at
1946. “[F]ocus on the plain meaning of the clause
which contains the best evidence of Congress’s preemptive intent.” Id.
It is well established that the MDA expressly
preempts state requirements that are “different from,
or in addition to” federal requirements and that was
the clear intention of Congress. Riegel v. Medtronic,
Inc., 552 U.S. 312, 316 (2008). Plaintiffs also cite to
Medtronic, Inc., v. Lohr, 518 U.S. 470, 487 (1996) for the
proposition that it is difficult to believe that Congress
would remove all means of judicial recourse for consumers injured by FDA approved devices. Contrary to
Plaintiffs’ position, “this is exactly what a pre-emption
clause for medical devices does by its terms.” Riegel,
552 U.S. at 326. Therefore, the presumption against
preemption does not apply here.
2. Plaintiffs Do Not Assert A Parallel
Claim That Survives Preemption
The MDA contains an express preemption provision that provides, as relevant here:
“[N]o State . . . may establish or continue in
effect with respect to a device intended for human use any requirement—
(1) which is different from, or in addition to,
any requirement applicable under this Act to
the device, and

App. 21
(2) which relates to the safety or effectiveness of the device or to any other matter included in a requirement applicable to the
device under this chapter.” 21 U.S.C. § 360k(a).
The Supreme Court, in Riegel, applied a two-step
analysis to determine whether the MDA expressly
preempts a state law claim within the meaning of
§ 360k(a). First, a court must determine whether the
FDA has established requirements applicable to the
particular medical device at issue. Riegel, 552 U.S. at
321-22. Second, a court must determine whether the
state law claims are based on state requirements that
are “different from, or in addition to” the federal requirements, and relate to safety and effectiveness. Id.
State “requirements” also include the state’s commonlaw legal duties. Id. at 324-325 (“State tort law . . . disrupts the federal scheme no less than state regulatory
law to the same effect”).
However, the Supreme Court has made clear that
“§ 360k does not prevent a State from providing a damages remedy for claims premised on a violation of FDA
regulations; the state duties in such a case parallel, rather than add to, federal requirements.” Id. at 330; see
also Stengel v. Medtronic, Inc., 704 F.3d 1224, 1228 (9th
Cir. 2013) (en banc) (“[T]he MDA does not preempt a
state-law claim for violating a state-law duty that parallels a federal-law duty under the MDA”).
In order for a state requirement to be parallel to a
federal requirement, a plaintiff must show that the
requirements are “genuinely equivalent.” Houston v.

App. 22
Medtronic, 957 F. Supp. 2d 1166, 1174 (C.D. Cal. July
30, 2013) (quoting WolickiGables v. Arrow Int’l, Inc.,
634 F.3d 1296, 1300 (11th Cir. 2001)). State and federal
requirements are not generally equivalent if a manufacturer could be held liable under state law without
having violated federal law. Id. at 1174.
The MDA also provides that all actions to enforce
FDA requirements “shall be by and in the name of the
United States.” 21 U.S.C. § 337(a). The Supreme Court
interpreted that the provision “leaves no doubt that it
is the Federal Government rather than private litigants who are authorized to file suit for noncompliance
with the medical device provisions.” Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 349 n. 4 (2001).
Thus, to avoid implied preemption, a cause of action
must rely on traditional state law and not be based
solely on a violation of federal law. Id. at 353.
The Ninth Circuit has recognized that there is a
‘narrow gap’ through which a state-law claim must fit
to escape preemption.” Perez v. Nidek Co., Ltd., 711
F.3d 1109, 1120 (9th Cir. 2013). “The plaintiff must be
suing for conduct that violates the FDCA (or else his
claim is expressly preempted by § 360k(a)), but the
plaintiff must not be suing because the conduct violates the FDCA (such a claim would be impliedly
preempted under Buckman).” Id. at 1120 (emphasis in
original) (citing In re Medtronic, Inc., Sprint Fidelis
Prods. Liab. Litig., 623 F.3d 1200, 1204) (8th Cir. 2010).
To avoid preemption, a plaintiff must assert a statelaw claim that is premised on a violation of federal law
but that is not based solely on such violation. Id.

App. 23
Here, Plaintiffs allege Mentor violated federal
laws and regulations that are parallel to violations of
California state law; however, Plaintiffs have not satisfied their pleading burden. As an initial matter, the
Court is not satisfied with Plaintiffs’ argument that
Mentor violated federal and state law by failing to report adverse events to the FDA. These allegations are
merely conclusory. Plaintiffs’ Complaint lacks any reference to the specific adverse events that Mentor failed
to report. Further, Plaintiffs do not specifically allege
that poor performance on post-approval studies is a
violation of federal law. Additionally, the Court rejects Plaintiffs’ claims that Mentor violated federal
regulations and state law by defectively manufacturing MemoryGel Implants. Plaintiffs, in conclusory
fashion, allege that Defendants’ MemoryGel Implant
specifications are inconsistent with federal regulations;
however, Plaintiffs fail to allege facts demonstrating
that Defendants’ specifications are inconsistent or violative of federal standards. In short, a plaintiff “cannot
simply incant the magic words” that a defendant violated FDA regulations to avoid preemption. Simmons
v. Boston Scientific Corp., 2013 WL 1207421 at *4 (C.D.
Cal. Mar. 25, 2018) (quoting WolickiGables, 634 F.3d at
1301). Lastly, Plaintiffs fail to allege facts showing how
any federal violation caused their claimed injuries.
Plaintiffs have not asserted a parallel claim capable of
surviving preemption.
Plaintiffs claim that “discovery is necessary” to
provide a basis for their claims but Plaintiffs cannot be
permitted to engage in discovery when they have not

App. 24
met the most basic pleading standards. Nothing in
Plaintiffs’ allegations suggests discovery is needed to
resolve this Motion.
3. Plaintiffs Fail to Sufficiently Plead
Failure to Report
The FDA requires device manufacturers to report
any time its device “may have caused or contributed to
a death or serious injury.” 21 C.F.R. § 803.50(a). A claim
based on the failure to warn the FDA of adverse events
is not preempted to the extent state tort law recognizes
a parallel duty. De La Paz v. Bayer Healthcare LLC, 159
F. Supp. 3d 1085, 1096-97 (N.D. Cal. Feb. 2, 2016). However, a claim based on a failure to warn physicians or
patients of adverse events would be preempted. Id.; see
also Stengel, 704 F.3d at 1234. California law recognizes such a duty to warn. Coleman v. Medtronic, Inc.,
223 Cal.App.4th 413, 429 (2014). To state a failure to
warn claim under California law, a plaintiff “will ultimately have to prove that if [a defendant] had properly
reported the adverse events to the FDA as required under federal law, that information would have reached
[the plaintiff ’s] doctors in time to prevent [plaintiff ’s]
injuries.” Id. at 429-30 (quoting Stengel, 704 F.3d at
1234).
Here, Plaintiffs’ conclusory allegation that Mentor
failed to comply with federal requirements by not reporting adverse events is insufficient. Plaintiffs do not
point to any facts supporting their assertion. Plaintiffs
have not explained how any purported failure to report

App. 25
unspecified adverse events caused her injuries. In
turn, Plaintiff ’s allegations are based not on a failure
to report actual adverse events from the post-approval
studies but rather on a purported failure to properly
conduct those studies. “The alleged technical defects in
Mentor’s post-approval studies, however, do not constitute adverse events.” Ebrahimi v. Mentor Worldwide
LLC, 2018 WL 2448095, at *3 (C.D. Cal. May 25, 2018).
Plaintiffs cannot pursue a claim premised on a counterfactual assumption that Mentor would have identified additional adverse events if it had conducted the
studies more adequately. Any such claim is impermissibly speculative. Additionally, any claim premised on
Mentor’s alleged failure to conduct the post-approval
studies adequately is impliedly preempted, because
there is no state law duty to conduct post-approval
studies in the first instance.
Furthermore, Plaintiff ’s failure to report a claim
fails because they do not allege facts showing that the
FDA would have exercised its discretion to include additional adverse events in its publicly-accessible adverse-event database had Mentor reported the events.
Nor do Plaintiffs allege facts showing that their physicians relied on information in the adverse-event
database when making decisions. Without such facts,
Plaintiffs cannot establish a causal nexus between
their alleged injuries and Mentor’s alleged failure to
report.
Plaintiffs deduce that if Mentor had conducted follow-up with participants enrolled in clinical studies
that there would have been adverse event reports

App. 26
showing heightened instances of rupture rates. No
facts support the conclusion that additional information from patients in post-approval studies would
reveal additional adverse events regarding ruptures or
would result in the FDA requiring different labeling.
Nor have Plaintiffs alleged any facts explaining how
Mentor’s purported failure to report adverse events
from its post-approval studies somehow caused their
injuries. Plaintiff ’s failure to report claim, thus, fails
for lack of proximate causation.
4. Plaintiffs’ Manufacturing
Claims Are Preempted

Defect

For manufacturing defects claims to survive
preemption, plaintiffs are required to allege “that the
manufacturing of the device both fell short of the FDA’s
requirement for manufacturing and—based on the
same deficiency—was defectively manufactured under
California law.” Funke v. Sorin Group USA, Inc., 147
F. Supp. 3d 1017, 1026 (C.D. Cal. Nov. 24, 2015). The
MDA provides that a device is defective if “the methods
used in, or the facilities or controls used for, its manufacture . . . are not in conformity” with the FDA’s requirements for that device. 21 U.S.C. § 351(h). Next, to
escape implied preemption, a plaintiff must allege that
the manufacturing defect caused her injuries. De La
Paz, 159 F. Supp. 3d at 1094; see also Erickson v. Boston
Scientific Corp., 846 F. Supp. 2d 1085, 1092 (C.D. Cal.
2011) (stating a plaintiff must establish a “causal
nexus between the alleged injury and the violation”).

App. 27
Here, Plaintiffs claim that Mentor’s implants differed in some undefined way from the manufacturing
and design specifications mandated by the FDA as part
of the PMA; that Mentor used unidentified material
and components that somehow differed from those approved by the FDA; that Mentor violated unspecified
provisions of applicable federal regulations, including
the FDA’s Quality System Regulations and design control requirements under 21 C.F.R. 820.30. But Plaintiffs “fail[ ] to adequately allege that the MemoryGel
Implants violated the FDA’s manufacturing requirements.” Ebrahimi v. Mentor Worldwide LLC, 2018 WL
6829122, at *2 (C.D. Cal. Dec. 27, 2018). Merely alleging that a defendant violated unspecified “law and regulations” or produced a “noncomforming” device does
not sufficiently establish that the defendant violated
a federal requirement. Instead a plaintiff must identify specific regulatory violation at issue. In addition,
Plaintiffs do not allege how any violation caused their
purported injuries; they simply conclude that causation exists without providing any supporting explanation. More is needed.
5. Plaintiffs Fail To Explain How To
Cure The Pleading Deficiencies
Valid reasons for denying leave to amend include
undue delay, bad faith, repeated failure to cure deficiencies by amendments previously allowed, undue
prejudice, and futility. Foman v. Davis, 371 U.S. 178,
182 (1962); see also Klamath-Lake Pharm. Ass’n v. Klamath Med. Serv. Bureau, 701 F.2d 1276, 1292-93 (9th

App. 28
Cir. 1983) (holding that while leave to amend shall be
freely given, the court need not allow futile amendments). The Court denies leave to amend because
Plaintiffs have not explained how further amendment
could cure the pleading deficiencies in their Complaint.
IV. CONCLUSION
For the foregoing reasons, Plaintiffs’ Motion to Remand is DENIED. Defendant Mentor Worldwide’s Motion to Dismiss is GRANTED as to each of Plaintiffs’
claims. As amendment would be futile, Plaintiffs’ Complaint is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: August 27, 2019 /s/ André Birotte Jr.
HONORABLE
ANDRÉ BIROTTE JR.
UNITED STATES
DISTRICT COURT JUDGE

App. 29
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KATE NUNN; et al.,
Plaintiffs-Appellants,
v.

No. 19-56391
D.C. No.
2:19-cv-01484-AB-PLA

MENTOR WORLDWIDE, LLC; MEMORANDUM*
(Filed Feb. 5, 2021)
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Andre Birotte, Jr., District Judge, Presiding
Submitted February 3, 2021** Pasadena, California
Before: GOULD, OWENS, and VANDYKE, Circuit
Judges.
Plaintiffs appeal from the district court’s judgment dismissing their action alleging state law claims
arising out of injuries they suffered after the implantation of MemoryGel Silicone Breast Implants manufactured by Mentor Worldwide, LLC (“Mentor”). The
breast implants at issue are a Class III medical device
approved by the Federal Drug Administration (“FDA”)
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 30
under the pre-market approval process of the Medical
Device Amendments (“MDA”) to the Food, Drug, and
Cosmetic Act (“FDCA”). We review de novo a district
court’s denial of a motion to remand Canela v. Costco
Wholesale Corp., 971 F.3d 845, 849 (9th Cir. 2020). We
review de novo a district court’s dismissal for failure to
state a claim pursuant to Federal Rule of Civil Procedure 12(b)(6), and for abuse of discretion the denial of
leave to amend. Curry v. Yelp Inc., 875 F.3d 1219, 1224
(9th Cir. 2017). As the parties are familiar with the
facts, we do not recount them here. We affirm.
1. The district court properly denied Plaintiffs’
motion to remand. The district court properly determined that NuSil, LLC (“NuSil”) was fraudulently
joined, and therefore diversity jurisdiction existed.
Fraudulent joinder may be established “if a defendant shows that an ‘individual[ ] joined in the action
cannot be liable on any theory.’” Grancare, LLC v.
Thrower ex. rel. Mills, 889 F.3d 543, 548 (9th Cir.
2018) (citation omitted). “Fraudulent joinder must be
proven by clear and convincing evidence.” Hamilton
Materials, Inc. v. Dow Chem. Corp., 494 F.3d 1203, 1206
(9th Cir. 2007). Based on Scott Mraz’s deposition testimony and the amended Statement of Information,
Mentor showed by clear and convincing evidence that
NuSil was not involved in manufacturing or supplying the silicone used in Mentor’s allegedly defective
implants, and thus there was no possibility Plaintiffs
could recover against NuSil. See DiCola v. White Brothers Performance Prods., Inc., 69 Cal. Rptr. 3d 888, 897
(Ct. App. 2008). Because the district court properly

App. 31
determined that NuSil was fraudulently joined, we do
not reach Plaintiffs’ argument that Mentor’s removal
was prohibited by 28 U.S.C. § 1441(b)(2) since Mentor
removed before Plaintiffs served NuSil.
2. The district court also properly dismissed
Plaintiffs’ state law claims as preempted by the MDA.
The MDA expressly preempts state law claims unless
they are premised on a “parallel” federal requirement.
See 21 U.S.C. § 360k(a); Riegel v. Medtronic, Inc., 552
U.S. 312, 330 (2008). Even if a state law claim is not
expressly preempted by the MDA, it may be impliedly
preempted. See 21 U.S.C. § 337(a); Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 352-53 (2001).
Thus, to escape preemption, a state law claim must fit
through a “narrow gap”: “The plaintiff must be suing
for conduct that violates the FDCA (or else his claim is
expressly preempted by § 360k(a)), but the plaintiff
must not be suing because the conduct violates the
FDCA (such a claim would be impliedly preempted under Buckman).” Perez v. Nidek Co., Ltd., 711 F.3d 1109,
1120 (9th Cir. 2013) (citation omitted).
Plaintiffs’ failure to warn claims are primarily
based on Mentor’s alleged failure to report adverse
events related to its MemoryGel Silicone Breast Implants to the FDA. In states that recognize failure to
report claims, such as California, a manufacturer’s failure to report adverse events to the FDA can form the
basis of a parallel claim that survives preemption. See
Stengel v. Medtronic Inc., 704 F.3d 1224, 1233 (9th Cir.
2013) (en banc); Coleman v. Medtronic, Inc., 167 Cal.
Rptr. 3d 300, 311-12 (Ct. App. 2014).

App. 32
Here, however, Plaintiffs fail to allege actual adverse events that Mentor did not report to the FDA.
Rather, Plaintiffs speculate that if Mentor had conducted its post-approval studies differently (e.g., increased follow-up with participants), then Mentor
would have identified additional adverse events that
it would have reported to the FDA. These conclusory
and speculative allegations are insufficient to state
a parallel failure to warn claim. See Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). Moreover, to the extent Plaintiffs base their failure to warn claims on
Mentor’s alleged failure to properly conduct the postapproval studies, Plaintiffs’ claims are impliedly
preempted because Plaintiffs do not identify a parallel
state law duty to conduct post-approval studies. In addition, to the extent Plaintiffs argue that Mentor failed
to warn them or their doctors directly, such claims are
preempted because there are no such federal requirements. See Stengel, 704 F.3d at 1234 (Watford, J., concurring).
For their manufacturing defect claims to survive
express preemption under the MDA, Plaintiffs must
allege that Defendants “deviated from a particular premarket approval or other FDA requirement applicable
to the Class III medical device.” Weber v. Allergan, Inc.,
940 F.3d 1106, 1112 (9th Cir. 2019). They “cannot
simply demonstrate a defect or a malfunction and rely
on res ipsa loquitur to suggest only . . . that the thing
speaks for itself.” Id. (citation and internal quotation
marks omitted).

App. 33
Here, Plaintiffs fail to allege that Defendants violated a particular FDA requirement. For example,
Plaintiffs vaguely allege that Mentor’s MemoryGel Silicone Breast Implants contained unidentified materials that differed from those approved by the FDA.
Further, Plaintiffs’ mere allegations “suggesting that
[their] particular breast implant[s] w[ere] defective
do[ ] not show that [Defendants] failed to comply with
the FDA’s Current Good Manufacturing Practices.” Id.
at 1114.
While we are sympathetic to Plaintiffs’ health
problems, they have not sufficiently alleged a state law
claim that squeezes through the “narrow gap” to escape MDA preemption. Perez, 711 F.3d at 1120 (citation omitted).
3. Finally, the district court did not abuse its discretion by dismissing Plaintiffs’ action without leave to
amend based on its determination that any amendment would be futile. See Ebner v. Fresh, Inc., 838 F.3d
958, 968 (9th Cir. 2016).
AFFIRMED.

App. 34
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
TAMMI JACOB et al;
Plaintiffs,

Case No.
CV 19-01484-AB (PLAx)

ORDER DENYING
PLAINTIFFS’ MOMENTOR WORLWIDE, LLC; TION TO REMAND
NUSIL, LLC; NUSIL TECH- AND GRANTING
NOLOGY, LLC; and DOES
DEFENDANTS’ MO1-100, inclusive,
TIONS TO DISMISS
Defendant.
(Filed Aug. 1, 2019)
v.

Before the Court are three motions filed by the
Parties.
Defendants, Mentor Worldwide, LLC. (“Mentor”),
NuSil LLC., and NuSil Technology LLC (“NuSil”) filed
motions to dismiss (Dkt. Nos. 19, 23). Plaintiffs Tammi
Jacob (“Jacob”), Kate Nunn (“Nunn”), Aluvia Solano
(“Solano”), Mary Watson (“Watson”), and April Zimmerman (“Zimmerman”) (collectively, “Plaintiffs”) opposed the motions (Dkt. Nos. 34, 35), and Defendants
replied (Dkt. Nos. 37, 38).
Plaintiffs filed a Motion to Remand (Dkt. No. 21).
Mentor opposed the motion (Dkt. No. 33) and Plaintiffs
replied (Dkt. No. 39). The Court heard oral argument
on July 12, 2019 and took the motions under submission. For the following reasons, Plaintiffs’ Motion to
Remand is DENIED and Defendants’ Motions to Dismiss is GRANTED.

App. 35
I.

BACKGROUND

This lawsuit revolves around injuries Plaintiffs
allegedly suffered after receiving surgical implants
of Mentors’ MemoryGel Silicone Breast Implants
(“MemoryGel Implants”). Plaintiffs plead the following
in their Complaint (“Compl.,” Dkt. No. 1, Exhibit A).
A. The Parties
Jacob is a citizen and resident of Los Angeles
County, California. Compl. ¶ 1. Nunn is a citizen and
resident of Collin County, Texas. Id. ¶ 2. Solan is a citizen and resident of Bernalillo County, New Mexico. Id.
¶ 3. Watson is a citizen of Saline County, Arkansas. Id.
¶ 4. Zimmerman is a citizen of Jackson County, Missouri. Id. ¶ 5.
Mentor is a limited liability company incorporated
in Delaware with its principal place of business in
Santa Barbara, California. Id. ¶ 6. Mentor manufactured the MemoryGel Implants at issue. Id. ¶ 7.
NuSil LLC is a limited liability company incorporated in California with its principal place of business
in Carpinteria, California. Id. ¶ 8.
NuSil Technology, LLC is a limited liability company incorporated in Delaware with its principal place
of business in Carpinteria, California. Id. ¶ 9. NuSil
LLC and NuSil Technology are silicone raw material
suppliers and allegedly manufactured, produced, supplied, and shipped the silicone used in the MemoryGel
Implants. Id. ¶ 11.

App. 36
B. FDA Regulation of Silicone Breast Implants
In 1976, Congress passed the Medical Device
Amendments (“MDA”) to the Federal Food, Drug, and
Cosmetic Act (“FDCA”). Id. ¶ 41. Under the MDA, medical devices, such as the MemoryGel Implants, are subject to three classifications and regulated accordingly.
Id. ¶ 42. Class I devices require the least and most general oversight, Class II devices are reviewed according
to more stringent “special controls,” and Class III devices receive the most oversight and require rigorous
premarket review and approval. Id. The Food and
Drug Administration (“FDA”) classified silicone breast
implants as Class III devices. Id. ¶ 43. Accordingly, the
FDA requires manufacturers to meet certain requirements for Class III devices. Id. On April 10, 1991, the
FDA published a final regulation under Section 515(b)
of the FDCA requiring that manufacturers of silicone
breast implants submit pre-market approval (“PMA”)
applications with data showing a reasonable assurance of safety and effectiveness of the implants by July
9, 1991. Id. ¶ 44.
C. Mentor’s FDA Approval
In order to eventually seek PMA for its MemoryGel Implants, Mentor was required to first provide
the FDA with sufficient information regarding the
safety and efficacy of the medical device. Id. ¶ 51. On
December 12, 2003, Mentor submitted a request to the
FDA for PMA for its MemoryGel Implants. Id. ¶ 67. On

App. 37
November 17, 2006, Mentor received approval subject
to certain conditions. Id. ¶ 68. One of the conditions
imposed on Mentor required it to conduct six postapproval studies1 to further characterize the safety
and effectiveness of MemoryGel Implants. Id. ¶ 68.
D. Plaintiffs’ MemoryGel Procedures
Jacob was implanted with MemoryGel Implants
in November 2006. Id. ¶ 21. Jacob alleges that following implantation she developed pain and swelling of
her breasts, experienced fatigue, muscle pain, muscle
weakness, joint pain, stiffness and swelling, vision issues, light sensitivity, numbness, dizziness, nausea,
memory loss, shortness of breath, cognitive dysfunction, chest pain, migraines, itching, chronic sore throats,
night sweats, and hair loss. Id. ¶ 22. In July 2018, an
MRI scan revealed Jacob’s right breast implant had
ruptured; Jacob underwent a bilateral explantation of
her implants on August 6, 2018. Id. ¶ 23. After explantation, various defects were found within Jacob’s right
breast implant. Id. ¶ 24.
Nunn was implanted with MemoryGel Implants
in December 2014 and December 2015. Id. ¶ 25. Following the implantation, Nunn began to experience,
among other things, pain and swelling of the breasts,
edema, and muscle pain. Id. ¶ 26. On September 17,
1

The FDA required Mentor to conduct: the core study, the
large post-approval study, the device-failure study, the focusgroup study, the informed-decision study, and the adjunct study.
Id. ¶ 69.

App. 38
2018, Nunn underwent an explantation of her right
breast implant. Id. ¶ 27. A gel bleed/rupture was discovered during the procedure. Id. After explantation,
various defects were found within Nunn’s right breast
implant. Id. ¶ 28.
Solano was implanted with MemoryGel Implants
for her left and right breast on April 19, 2011 and August 9, 2011 respectively. Id. ¶ 30. Following implantation, Solano developed a number of illnesses and
symptoms. Id. ¶ 31. On December 13, 2016, Solano underwent an explantation of her ruptured left breast
implant. Id. ¶ 31. After explantation, various defects
were found within Solano’s left breast implant. Id.
¶ 32.
Watson was implanted with MemoryGel Implants
in February 2012. Id. ¶ 33. Following the implantation,
Watson began to experience, among other things, fatigue, muscle weakness, joint stiffness, shortness of
breath, itching, dizziness, and night sweats. Id. ¶ 34.
On January 24, 2017, Watson underwent a bilateral
explantation of her implants. Id. ¶ 35. A gel bleed/rupture was discovered during the procedure. Id. After explantation, various defects were found within Watson’s
right breast implant.
Zimmerman was implanted with MemoryGel Implants on June 8, 2012. Id. ¶ 37. Following the implantation, Zimmerman began to experience, among other
things, fatigue, cognitive dysfunction, muscle pain and
weakness, joint pain, stiffness, and swelling, memory
loss, shortness of breath, chest pain, nausea, dizziness,

App. 39
fevers, numbness, vision issues, light sensitivity, silicone toxicity, hair loss, dry eyes, dry mouth, chills, sore
throat, skin rash, and a metallic taste in her mouth. Id.
¶ 38. In May 2017, an MRI scan revealed Zimmerman’s right breast implant had ruptured; Zimmerman
underwent explantation of her implants on June 21,
2017. After explantation, various defects were found
within Zimmerman’s right breast implant. Id. ¶ 39.
E. This Action
On February 27, 2019, Plaintiffs filed a complaint
in the Los Angeles County Superior Court asserting
causes of action for: (1) negligence/negligence per se;
(2) failure to warn; and (3) manufacturing defect. On
February 28, 2019, Mentor filed a notice of removal in
this Court and then filed a motion to dismiss Plaintiffs’
complaint pursuant to Federal Rule of Civil Procedure
12(b)(6). Plaintiffs filed a motion to remand.
II.

LEGAL STANDARD
A. Motion to Dismiss Under 12(b)(6)

Federal Rule of Civil Procedure 8 requires a plaintiff to present a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). Under Rule 12(b)(6), a defendant may
move to dismiss a pleading for “failure to state a claim
upon which relief can be granted.” Fed. R. Civ. P.
12(b)(6).

App. 40
To defeat a motion to dismiss under Rule 12(b)(6),
the complaint must provide enough details to “give
the defendant fair notice of what the . . . claim is and
the grounds upon which it rests.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). The complaint must
also be “plausible on its face,” allowing the court to
“draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). “The plausibility standard is not
akin to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted unlawfully.” Id. at 678. Labels, conclusions, and “a formulaic recitation of the elements of a cause of action will
not do.” Twombly, 550 U.S. at 555.
When ruling on a Rule 12(b)(6) motion, “a judge
must accept as true all of the factual allegations contained in the complaint.” Erickson v. Pardus, 551 U.S.
89, 94 (2007). But a court is “not bound to accept as
true a legal conclusion couched as a factual allegation.”
Iqbal, 556 U.S. at 678 (internal quotation marks omitted).
B. Leave to Amend
Should a court dismiss certain claims, “[l]eave to
amend should be granted unless the district court ‘determines that the pleading could not possibly be cured
by the allegation of other facts.’ ” Knappenberger v. City
of Phoenix, 566 F.3d 936, 942 (9th Cir. 2009) (quoting
Lopez v. Smith, 203 F.3d 1122, 1127 (9th Cir. 2000) (en
banc)); see also Knevelbaard Dairies v. Kraft Foods,

App. 41
Inc., 232 F.3d 979, 983 (9th Cir. 2000) (“An order granting such a motion must be accompanied by leave to
amend unless amendment would be futile”).
C. Removal
Federal courts are courts of limited jurisdiction
and possess only that jurisdiction as authorized by the
Constitution and federal statute. Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994). Under
28 U.S.C. § 1441(a), a party may remove a civil action
only if the district court has original jurisdiction over
the issues alleged in the state court complaint. There
is a strong presumption that the Court is without jurisdiction until affirmatively proven otherwise. See
Fifty Assocs. v. Prudential Ins. Co. of America, 446 F.2d
1187, 1190 (9th Cir. 1970). When an action is removed
from state court, the removing party bears the burden
of demonstrating that removal is proper. Gaus v. Miles,
Inc., 980 F.2d 564, 566 (9th Cir. 1992).
Under the diversity statute, 28 U.S.C. § 1332, a
federal district court has original jurisdiction when the
parties are completely diverse and the amount in controversy exceeds $75,000. See 28 U.S.C. § 1332. Pursuant to 28 U.S.C. § 1441(a) and (b), a defendant may
remove an action from state court to federal court if the
diversity and amount in controversy requirements are
satisfied. Under 28 U.S.C. § 1441(b)(2), “[a] civil action
otherwise removable solely on the basis of the jurisdiction under section 1332(a) of this title may not be removed if any of the parties in interest properly joined

App. 42
and served as defendants is a citizen of the State in
which such action is brought.” 28 U.S.C. § 1441(b)(2).
A non-diverse party may be disregarded for purposes of determining whether jurisdiction exists if the
court determines that the party’s joinder was “fraudulent” or a “sham.” Ritchey v. Upjohn Drug Co., 139 F.3d
1313, 1318 (9th Cir. 1998). “Fraudulent joinder” occurs,
for the purpose of determining diversity jurisdiction,
where the plaintiff fails to state a cause of action
against the resident defendant, and the failure is obvious according to settled rules of the state. McCabe v.
Gen. Foods Corp., 811 F.2d 1336 (9th Cir. 1987). “But if
there is a possibility that a state court would find that
the complaint states a cause of action against any of
the resident defendants, the federal court must find
that the joinder was proper and remand the case to the
state court.” Grancare, LLC v. Thrower by & through
Mills, 889 F.3d 543, 548 (9th Cir. 2018) (quotations
omitted).
The defendant has a high burden of proof when
establishing fraudulent joinder. A removing defendant
may present evidence to prove fraudulent joinder, but
the district court must resolve all disputed questions
of fact in the plaintiff ’s favor. See Grancare, 889 F.3d
at 549. Thus, a defense should not require “a searching
inquiry into the merits of the plaintiff ’s case, even if
that defense, if successful, would prove fatal.” Id. In
this regard, “[r]emand must be granted unless the defendant shows that the plaintiff would not be afforded
leave to amend his complaint to cure [a] purported
deficiency” in its allegations against the non-diverse

App. 43
defendant. Padilla v. AT & T Corp., 697 F. Supp. 2d
1156, 1159 (C.D. Cal. 2009) (quotations omitted). Ultimately, “[f ]raudulent joinder must be proven by clear
and convincing evidence.” Hamilton Materials, Inc. v.
Dow Chem. Corp., 494 F.3d 1203, 1206 (9th Cir. 2007).
III. DISCUSSION
A. The Court Has Subject Matter Jurisdiction
This dispute raises two issues concerning the
Court’s subject matter jurisdiction. First, Plaintiff argues Section 1441(b)(2) precludes removal because NuSil LLC had not been served at the time of Mentor’s
Notice of Removal. Additionally, Defendants contend
that complete diversity2 exists because NuSil LLC,
a California corporation, is fraudulently joined. The
Court addresses each argument in turn.
1. Section 1441(b) Does Not Prohibit
Removal
Plaintiffs first argue that Section 1441(b) prohibits removal here because Mentor removed to this
Court before Plaintiffs had an opportunity to serve
any of the Defendants. Plaintiffs also argue the literal

2

There is no federal question jurisdiction in this matter as it
does not touch upon any area of federal law. Thus this Court only
has jurisdiction if all the requirements of diversity jurisdiction
are satisfied.

App. 44
interpretation of Section 1441(b) promotes gamesmanship on the part of removing defendants.
The forum defendant rule, articulated in Section
1441(b)(2), provides that “[a] civil action otherwise removable solely on the basis of [diversity] jurisdiction
. . . may not be removed if any of the parties in interest
properly joined and served as defendants is a citizen of
the State in which such action is brought.” 28 U.S.C.
§ 1441(b)(2).
This Court previously held that the above statute
precludes removal only when the in-state defendant
has been both properly joined and properly served in
the action prior to removal. See Dechow v. Gilead Sci.,
Inc., 358 F. Supp. 3d 1051 (C.D. Cal. 2019) (“The text of
§ 1441(b)(2) is unambiguous,” and “[i]ts plain meaning
precludes removal on the basis of in-state citizenship
only when the defendant has been properly joined and
served.”)
In Dechow, however, the Court also noted that
there may be “absurd or bizarre results” that prevent
plaintiff from having the opportunity to exact service;
in such scenarios, the forum defendant rule may not
apply. Id., at 1055.
The Court relied on Vallejo v. Amgen, Inc., 2013
WL 12147584 (C.D. Cal. Aug. 30, 2013) as an example
of a possible instance of absurdity. In Vallejo, the defendants filed a notice of removal on diversity grounds
before the Superior Court made the summons available to plaintiff. On those facts, it was impossible for
plaintiff to serve defendants before removal. Id. This

App. 45
distinction required the Court to deviate from adopting
the literal interpretation of Section 1441(b)(2). Id.
Nothing before the Court suggests it was impossible for Plaintiffs to serve Defendants before removal.
Plaintiffs’ primary argument is that the short time
(less than 24 hours) between the time Plaintiffs filed
their complaint and Defendants filed their Notice of
Removal made it impossible for Plaintiffs to serve Defendants. Plaintiffs have not provided any indication
that they were unable to serve Defendants on the day
of filing. The Court recognizes this rule may create a
race to serve,3 but absent any dispositive ruling regarding the forum defendant rule, the Court adopts the
plain meaning of statutory text. Section 1441(b)(2)
does not bar Mentor’s removal because NuSil LLC was
not properly served at the time of removal.
2. NuSil LLC is Fraudulently Joined
Plaintiffs assert there is not complete diversity of
citizenship because NuSil LLC and Jacob are both California citizens. In their Complaint, Plaintiffs aver that
NuSil LLC manufactured a defective component of
Mentor’s implants. In response, Mentor contends that
NuSil LLC was fraudulently joined in the action.
In a product liability action, a plaintiff must establish “that the defendant produced, manufactured, sold,
3

Indeed, the rule does nothing to prevent a party from dutifully reviewing a court’s docket, and promptly filing a notice of
removal the moment a complaint is properly filed in order to
dodge a state tribunal.

App. 46
or was in some way responsible for the [defective] product.” Garcia v. Joseph Vince Co., 84 Cal. App. 3d 868,
874 (1984) (quotations omitted). Mentor argues that
NuSil LLC was not involved with the production of the
silicone used in its MemoryGel implants. Specifically,
Mentor argues NuSil LLC is a holding company with
no operations, and thus could not have participated in
the manufacture of Mentor’s allegedly defective implants. In support of this argument, Mentor submitted
to the Court the Declaration of Scott Mraz (“Mraz
Decl.”, Dkt. No. 42 Ex. C), an individual member of NuSil LLC since August 1, 2005. Mr. Mraz declares that
NuSil LLC (1) is a holding company that transacts no
business of its own and whose sole purpose is to hold
stock for its members; (2) has not developed, designed,
manufactured, supplied, or distributed any products,
including the silicone or silicone gel used to manufacture breast implants; and (3) has no ownership interest
in or control over the plant, equipment, and supplies
that are used to manufacture the silicone raw materials used in breast implants. See Mraz Decl. ¶¶ 4-5, 1314. Plaintiffs also deposed Mr. Mraz. Under oath Mr.
Mraz confirmed that NuSil LLC is an investment
holding company that played no role in producing or
supplying any products used in the manufacture of
breast implants. (See Deposition of Scott Mraz (“Mraz
Dep.”)
Jacob produces evidence contrary to Mr. Mraz’s position and suggests there is a triable issue. In 2013,
NuSil LLC filed a Statement of Information with the

App. 47
Secretary of State of California.4 The Statement of
Information is a short, two-page document which identifies NuSil LLC as a “Manufacturer of Silicone Products". Mraz signed that Statement of Information as
CFO/President of NuSil. Under oath, Mraz testified
that he would have reviewed the document for accuracy before signing.
Mentor claims that the 2013 Statement of Information contained a clerical error and points out that
NuSil has since filed an amended statement of information wherein it describes itself as an “Investment
holding entity.” See Hanna Decl., Ex. A (Dkt. No. 33-5).
Mentor argues this corrected Statement of Information “conclusively resolve[s]” the factual dispute
this Court previously addressed in a related matter.5
Plaintiffs’ position is bolstered by the declaration and
deposition testimony of Mr. Mraz.
After a review of the amended Statement of Information and Mr. Mraz’s testimony at deposition, the
Court concludes that NuSil LLC did not manufacture
silicone and was not involved in the development of the
MemoryGel Implant. NuSil is not a proper defendant
4

The Court GRANTS Plaintiffs’ request for judicial notice.
Dkt. No. 40. The 2013 Statement of Information is a proper subject of judicial notice under Federal Rule of Evidence 201. A court
may take judicial notice of matters of public record, and a California Statement of Information is a matter of public record. Khoury
Invs. Inc. v. Nationwide Mut. Ins. Co, No CV 13-05415-MWF (Ex),
2013 WL 12140449, at *2 (C.D. Cal. Sept. 16, 2013).
5
See Vieira v. Mentor Worldwide, LLC, et al., No. 2-18-cv06502-AB (PLAx) (C.D. Cal. Aug. 23, 2018)

App. 48
in this lawsuit as there is no possibility that Plaintiff
could recover under a theory of product liability
against NuSil LLC.
3. Plaintiff ’s Claims Are Properly Joined
Mentor argues in the alternative that Jacob
should be severed from the lawsuit. Rule 20 allows
courts to join plaintiff ’s claims that are substantially
similar in order to promote judicial economy, and reduce inconvenience, delay, and added expense. Here,
both the facts and legal theories of Jacob, as well as the
other remaining Plaintiffs are nearly identical. The
primary distinction between Plaintiffs’ claims is the
state in which Plaintiffs underwent surgery. There are
no other significant distinctions for each Plaintiff ’s
claims.6 Nothing supports severing Jacob’s claims in
what accounts to judicial waste.
B. Motion to Dismiss
In support of their motions to dismiss, Defendants
argue that Plaintiffs’ state-law claims are expressly
and impliedly preempted by the MDA. Because NuSil
LLC is not a proper party to this litigation, the Court
will only consider arguments from Mentor’s motion.
6

Mentor asserts that the difference in location, doctor conducting the procedure, and their understanding of the surgery are
all significant and support severance. However, those differences
appear minor when compared to the underlying background: each
woman alleges she received defective breast implants and became
ill as a result.

App. 49
Accordingly, NuSil LLC’s motion to dismiss is DENIED as moot since NuSil was fraudulently joined in
this matter.7 Because Plaintiffs’ claims against Mentor
are preempted by the MDA, Mentor’s motion to dismiss
is GRANTED.
1. There Is No Presumption Against
Preemption That Applies Here
The Supremacy Clause of the Constitution provides that federal law preempts state law. Art. VI. cl. 2.
However, preemption analysis starts with the assumption that state laws are not preempted unless it was
intended by Congress. Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 230 (1947). Thus, legislative intent is the
“ultimate touchstone” of preemption analysis. Retail
Clerks v. Schermerhorn, 375 U.S. 96, 103 (1963). Congress’ intent to preempt state law may be expressed in
the statute’s language or implied in its statutory
framework Cipollone v. Liggett Group, Inc., 505 U.S.
504 (1992) (quoting Jones v. Rath Packing Co., 430 U.S.
519, 525 (1977)). When there is an express preemption
provision, the court does “not invoke any presumption
against pre-emption but instead ‘focus[es] on the plain
wording of the clause, which necessarily contains the
best evidence of Congress’ pre-emptive intent.’ ” Puerto
Rico v. Franklin Cal. Tax-Free Trust, 136 S. Ct. 1938,

7

Plaintiffs raise negligence per se arguments against NuSil
LLC, however those arguments will not be addressed as they are
inapplicable to the remaining parties.

App. 50
1946 (2016) (quoting Chamber of Commerce of U.S. v.
Whiting, 536 U.S. 582, 594 (2011)).
Here, Plaintiffs claim Mentor’s motion does not
overcome this presumption against preemption because
Mentor failed to establish that Congress intended to
bar redress for injuries caused by Defendants’ FDA violations. The Supreme Court in Puerto Rico found that
where there is an express preemption provision there
is no presumption against preemption. 136 S. Ct. at
1946. “[F]ocus on the plain meaning of the clause
which contains the best evidence of Congress’s preemptive intent.” Id.
It is well established that the MDA expressly
preempts state requirements that are “different from,
or in addition to” federal requirements and that was
the clear intention of Congress. Riegel v. Medtronic,
Inc., 552 U.S. 312, 316 (2008). Plaintiffs also cite to
Medtronic, Inc., v. Lohr, 518 U.S. 470, 487 (1996) for the
proposition that it is difficult to believe that Congress
would remove all means of judicial recourse for consumers injured by FDA approved devices. Contrary to
Plaintiffs’ position, “this is exactly what a pre-emption
clause for medical devices does by its terms.” Riegel,
552 U.S. at 326. Therefore, the presumption against
preemption does not apply here.
2. Plaintiffs Do Not Assert A Parallel
Claim That Survives Preemption
The MDA contains an express preemption provision that provides, as relevant here:

App. 51
“[N]o State . . . may establish or continue in
effect with respect to a device intended for human use any requirement—
(1) which is different from, or in addition to,
any requirement applicable under this Act to
the device, and
(2) which relates to the safety or effectiveness of the device or to any other matter
included in a requirement applicable to
the device under this chapter.” 21 U.S.C.
§ 360k(a).
The Supreme Court, in Riegel, applied a two-step
analysis to determine whether the MDA expressly
preempts a state law claim within the meaning of
§ 360k(a). First, a court must determine whether the
FDA has established requirements applicable to the
particular medical device at issue. Riegel, 552 U.S. at
321-22. Second, a court must determine whether the
state law claims are based on state requirements that
are “different from, or in addition to” the federal requirements, and relate to safety and effectiveness. Id.
State “requirements” also include the state’s commonlaw legal duties. Id. at 324-325 (“State tort law . . . disrupts the federal scheme no less than state regulatory
law to the same effect”).
However, the Supreme Court has made clear that
“§ 360k does not prevent a State from providing a damages remedy for claims premised on a violation of FDA
regulations; the state duties in such a case parallel, rather than add to, federal requirements.” Id. at 330; see
also Stengel v. Medtronic, Inc., 704 F.3d 1224, 1228 (9th

App. 52
Cir. 2013) (en banc) (“[T]he MDA does not preempt a
state-law claim for violating a state-law duty that parallels a federal-law duty under the MDA”).
In order for a state requirement to be parallel to a
federal requirement, a plaintiff must show that the
requirements are “genuinely equivalent.” Houston v.
Medtronic, 957 F. Supp. 2d 1166, 1174 (C.D. Cal. July
30, 2013) (quoting Wolicki-Gables v. Arrow Int’l, Inc.,
634 F.3d 1296, 1300 (11th Cir. 2001)). State and federal
requirements are not generally equivalent if a manufacturer could be held liable under state law without
having violated federal law. Id. at 1174.
The MDA also provides that all actions to enforce
FDA requirements “shall be by and in the name of the
United States.” 21 U.S.C. § 337(a). The Supreme Court
interpreted that the provision “leaves no doubt that it
is the Federal Government rather than private litigants who are authorized to file suit for noncompliance
with the medical device provisions.” Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 349 n. 4 (2001).
Thus, to avoid implied preemption, a cause of action
must rely on traditional state law and not be based
solely on a violation of federal law. Id. at 353.
The Ninth Circuit has recognized that there is a
“ ‘narrow gap’ through which a state-law claim must
fit to escape preemption.” Perez v. Nidek Co., Ltd., 711
F.3d 1109, 1120 (9th Cir. 2013). “The plaintiff must
be suing for conduct that violates the FDCA (or else
his claim is expressly preempted by § 360k(a)), but
the plaintiff must not be suing because the conduct

App. 53
violates the FDCA (such a claim would be impliedly
preempted under Buckman).” Id. at 1120 (emphasis in
original) (citing In re Medtronic, Inc., Sprint Fidelis
Prods. Liab. Litig., 623 F.3d 1200, 1204) (8th Cir. 2010).
To avoid preemption, a plaintiff must assert a statelaw claim that is premised on a violation of federal law
but that is not based solely on such violation. Id.
Here, Plaintiffs allege Mentor violated federal
laws and regulations that are parallel to violations of
California state law; however, Plaintiffs have not satisfied their pleading burden. As an initial matter, the
Court is not satisfied with Plaintiffs’ argument that
Mentor violated federal and state law by failing to report adverse events to the FDA. These allegations are
merely conclusory. Plaintiffs’ Complaint lacks any reference to the specific adverse events that Mentor failed
to report. Further, Plaintiffs do not specifically allege
that poor performance on post-approval studies is a
violation of federal law. Additionally, the Court rejects
Plaintiffs’ claims that Mentor violated federal regulations and state law by defectively manufacturing
MemoryGel Implants. Plaintiffs, in conclusory fashion,
allege that Defendants’ MemoryGel Implant specifications are inconsistent with federal regulations; however, Plaintiffs fail to allege facts demonstrating that
Defendants’ specifications are inconsistent or violative of federal standards. In short, a plaintiff “cannot
simply incant the magic words” that a defendant violated FDA regulations to avoid preemption. Simmons
v. Boston Scientific Corp., 2013 WL 1207421 at *4 (C.D.
Cal. Mar. 25, 2018) (quoting Wolicki-Gables, 634 F.3d

App. 54
at 1301). Lastly, Plaintiffs fail to allege facts showing
how any federal violation caused their claimed injuries. Plaintiffs have not asserted a parallel claim capable of surviving preemption.
Finally, Plaintiffs claim that “discovery is necessary” to provide a basis for their claims but Plaintiffs
cannot be permitted to engage in discovery when they
have not met the most basic pleading standards. Nothing in Plaintiffs’ allegations suggests discovery is
needed to resolve this Motion.
3. Plaintiff Nunn Cannot Assert a Failure to Report Claim
“[A] federal court sitting in diversity applies the
choice-of-law rules of the forum” state. Narayan v.
EGL, Inc., 616 F.3d 895, 898 (9th Cir. 2010). California
employs a “governmental interest analysis” to resolve
choice of law issues. Offshore Rental Co., Inc. v. Continental Oil Co., 22 Cal. 3d 157, 161 (1978). “California
courts have tended to apply the law of the place of the
injured’s domicile, finding that state has the greatest
interest.” Kasel v. Remington Arms Co., 24 Cal App.3d
711, 734 (1972); see also Mazza v. Am. Honda Motor
Co., 666 F.3d 581, 593 (9th Cir. 2012) (confirming that
under California’s choice of law rules, “the place of the
wrong has the predominant interest”).
Here, Plaintiff Nunn resided in Texas at all relevant times—her alleged injuries all occurred there.
Texas has the greatest interest in the application of its
law to Nunn’s claims and its law therefore applies.

App. 55
Thus, Plaintiff Nunn is preempted from making a failure to warn claim, because her home state of Colorado
does not recognize such claims. Moreover, Plaintiff
Nunn cannot avoid preemption by arguing that California law applies, because California has no comparable interest.
4. The Remaining Plaintiffs Fail to Sufficiently Plead Failure to Report
The FDA requires device manufacturers to report
any time its device “may have caused or contributed to
a death or serious injury.” 21 C.F.R. § 803.50(a). A claim
based on the failure to warn the FDA of adverse events
is not preempted to the extent state tort law recognizes
a parallel duty. De La Paz v. Bayer Healthcare LLC, 159
F. Supp. 3d 1085, 1096-97 (N.D. Cal. Feb. 2, 2016). However, a claim based on a failure to warn physicians or
patients of adverse events would be preempted. Id.; see
also Stengel, 704 F.3d at 1234. California law recognizes such a duty to warn. Coleman v. Medtronic, Inc.,
223 Cal.App.4th 413, 429 (2014). To state a failure to
warn claim under California law, a plaintiff “will ultimately have to prove that if [a defendant] had properly
reported the adverse events to the FDA as required under federal law, that information would have reached
[the plaintiff ’s] doctors in time to prevent [plaintiff ’s]
injuries.” Id. at 429-30 (quoting Stengel, 704 F.3d at
1234).
Here, Plaintiffs’ conclusory allegation that Mentor
failed to comply with federal requirements by not

App. 56
reporting adverse events is insufficient. Plaintiffs do
not point to any facts supporting their assertion. Plaintiffs have not explained how any purported failure to
report unspecified adverse events caused her injuries.
In turn, Plaintiffs allegations are based not on a failure
to report actual adverse events from the post-approval
studies but rather on a purported failure to properly
conduct those studies. “The alleged technical defects in
Mentor’s post-approval studies, however, do not constitute adverse events.” Ebrahimi v. Mentor Worldwide
LLC, 2018 WL 2448095, at *3 (C.D. Cal. May 25, 2018).
Plaintiffs cannot pursue a claim premised on a counterfactual assumption that Mentor would have identified additional adverse events if it had conducted the
studies more adequately. Any such claim is impermissibly speculative. Additionally, any claim premised
on Mentor’s alleged failure to conduct the post-approval studies adequately is impliedly preempted, because there is no state law duty to conduct postapproval studies in the first instance.
Furthermore, Plaintiffs failure to report a claim
fails because they do not allege facts showing that the
FDA would have exercised its discretion to include additional adverse events in its publicly-accessible adverse-event database had Mentor reported the events.
Nor do Plaintiffs allege facts showing that their physicians relied on information in the adverse-event
database when making decisions. Without such facts,
Plaintiffs cannot establish a causal nexus between
their alleged injuries and Mentor’s alleged failure to
report.

App. 57
Plaintiffs deduce that if Mentor had conducted
follow-up with participants enrolled in clinical studies that there would have been adverse event reports
showing heightened instances of rupture rates. No
facts support the conclusion that additional information from patients in post-approval studies would
reveal additional adverse events regarding ruptures or
would result in the FDA requiring different labeling.
Nor have Plaintiffs alleged any facts explaining how
Mentor’s purported failure to report adverse events
from its post-approval studies somehow caused their
injuries. Plaintiffs failure to report claim, thus, fails for
lack of proximate causation.
5. Plaintiffs’ Manufacturing
Claims Are Preempted

Defect

For manufacturing defects claims to survive
preemption, plaintiffs are required to allege “that the
manufacturing of the device both fell short of the FDA’s
requirement for manufacturing and—based on the
same deficiency—was defectively manufactured under
California law.” Funke v. Sorin Group USA, Inc., 147
F. Supp. 3d 1017, 1026 (C.D. Cal. Nov. 24, 2015). The
MDA provides that a device is defective if “the methods
used in, or the facilities or controls used for, its manufacture . . . are not in conformity” with the FDA’s requirements for that device. 21 U.S.C. § 351(h). Next, to
escape implied preemption, a plaintiff must allege that
the manufacturing defect caused her injuries. De La
Paz, 159 F. Supp. 3d at 1094; see also Erickson v. Boston
Scientific Corp., 846 F. Supp. 2d 1085, 1092 (C.D. Cal.

App. 58
2011) (stating a plaintiff must establish a “causal
nexus between the alleged injury and the violation”).
Here, Plaintiffs claim that Mentor’s implants differed in some undefined way from the manufacturing
and design specifications mandated by the FDA as part
of the PMA; that Mentor used unidentified material
and components that somehow differed from those approved by the FDA; that Mentor violated unspecified
provisions of applicable federal regulations, including
the FDA’s Quality System Regulations and design control requirements under 21 C.F.R. 820.30. But Plaintiffs “fail[ ] to adequately allege that the MemoryGel
Implants violated the FDA’s manufacturing requirements.” Ebrahimi v. Mentor Worldwide LLC, 2018 WL
6829122, at *2 (C.D. Cal. Dec. 27, 2018). Merely alleging that a defendant violated unspecified “law and regulations” or produced a “noncomforming” device does
not sufficiently establish that the defendant violated
a federal requirement. Instead a plaintiff must identify specific regulatory violation at issue. In addition,
Plaintiffs do not allege how any violation caused their
purported injuries; they simply conclude that causation exists without providing any supporting explanation. More is needed.
6. Plaintiffs Fail To Explain How To
Cure The Pleading Deficiencies
Valid reasons for denying leave to amend include
undue delay, bad faith, repeated failure to cure deficiencies by amendments previously allowed, undue

App. 59
prejudice, and futility. Foman v. Davis, 371 U.S. 178,
182 (1962); see also Klamath-Lake Pharm. Ass’n v. Klamath Med. Serv. Bureau, 701 F.2d 1276, 1292-93 (9th
Cir. 1983) (holding that while leave to amend shall be
freely given, the court need not allow futile amendments). The Court denies leave to amend because
Plaintiffs have not explained how further amendment
could cure the pleading deficiencies in their Complaint.
IV. CONCLUSION
For the foregoing reasons, Plaintiffs’ Motion to Remand is DENIED. Defendants NuSil LLC and NuSil
Technology LLC’s Motion to Dismiss is DENIED as
moot. Defendant Mentor Worldwide’s Motion to Dismiss is GRANTED as to each of Plaintiffs’ claims. As
amendment would be futile, Plaintiffs’ Complaint is
DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: August 1, 2019 /s/ André Birotte Jr.
HONORABLE
ANDRÉ BIROTTE JR.
UNITED STATES DISTRICT
COURT JUDGE

App. 60
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARY SEWELL, Wife; et al.,
Plaintiffs-Appellants,
v.

No. 19-56393
D.C. No.
8:19-cv-01126-AB-PLA

MENTOR WORLDWIDE, LLC; MEMORANDUM*
et al.,
(Filed Feb. 5, 2021)
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Andre Birotte, Jr., District Judge, Presiding
Submitted February 3, 2021**
Pasadena, California
Before: GOULD, OWENS, and VANDYKE, Circuit
Judges.
Plaintiffs appeal from the district court’s judgment dismissing their action alleging state law claims
arising out of injuries they suffered after the implantation of MemoryGel Silicone Breast Implants manufactured by Mentor Worldwide, LLC (“Mentor”). The
breast implants at issue are a Class III medical device
approved by the Federal Drug Administration (“FDA”)
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 61
under the pre-market approval process of the Medical
Device Amendments (“MDA”) to the Food, Drug, and
Cosmetic Act (“FDCA”). We review de novo a district
court’s denial of a motion to remand Canela v. Costco
Wholesale Corp., 971 F.3d 845, 849 (9th Cir. 2020). We
review de novo a district court’s dismissal for failure to
state a claim pursuant to Federal Rule of Civil Procedure 12(b)(6), and for abuse of discretion the denial of
leave to amend. Curry v. Yelp Inc., 875 F.3d 1219, 1224
(9th Cir. 2017). As the parties are familiar with the
facts, we do not recount them here. We affirm.
1. The district court properly denied Plaintiffs’
motion to remand. Mentor’s removal was timely under
28 U.S.C. § 1446(b)(3) because the deposition transcript of Scott Mraz revealed sufficiently new information about NuSil, LLC (“NuSil”) to trigger the
removal. See Fritsch v. Swift Transp. Co. of Ariz., LLC,
899 F.3d 785, 789 (9th Cir. 2018); Carvalho v. Equifax
Info. Servs., LLC, 629 F.3d 876, 887 (9th Cir. 2010).
The district court properly determined that NuSil
was fraudulently joined, and therefore diversity jurisdiction existed. Fraudulent joinder may be established
“if a defendant shows that an ‘individual[ ] joined in the
action cannot be liable on any theory.’ ” Grancare, LLC
v. Thrower ex. rel. Mills, 889 F.3d 543, 548 (9th Cir.
2018) (citation omitted). “Fraudulent joinder must be
proven by clear and convincing evidence.” Hamilton
Materials, Inc. v. Dow Chem. Corp., 494 F.3d 1203, 1206
(9th Cir. 2007). Based on Mraz’s deposition testimony
and the amended Statement of Information, Mentor
showed by clear and convincing evidence that NuSil

App. 62
was not involved in manufacturing or supplying the
silicone used in Mentor’s allegedly defective implants,
and thus there was no possibility Plaintiffs could recover against NuSil. See DiCola v. White Brothers Performance Prods., Inc., 69 Cal. Rptr. 3d 888, 897 (Ct.
App. 2008).
2. The district court also properly dismissed
Plaintiffs’ state law claims as preempted by the MDA.
The MDA expressly preempts state law claims unless
they are premised on a “parallel” federal requirement.
See 21 U.S.C. § 360k(a); Riegel v. Medtronic, Inc., 552
U.S. 312, 330 (2008). Even if a state law claim is not
expressly preempted by the MDA, it may be impliedly
preempted. See 21 U.S.C. § 337(a); Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 352-53 (2001).
Thus, to escape preemption, a state law claim must fit
through a “narrow gap”: “The plaintiff must be suing
for conduct that violates the FDCA (or else his claim is
expressly preempted by § 360k(a)), but the plaintiff
must not be suing because the conduct violates the
FDCA (such a claim would be impliedly preempted under Buckman).” Perez v. Nidek Co., Ltd., 711 F.3d 1109,
1120 (9th Cir. 2013) (citation omitted).
Plaintiffs’ failure to warn claims are primarily
based on Mentor’s alleged failure to report adverse
events related to its MemoryGel Silicone Breast Implants to the FDA. In states that recognize failure to
report claims, such as California, a manufacturer’s failure to report adverse events to the FDA can form the
basis of a parallel claim that survives preemption. See
Stengel v. Medtronic Inc., 704 F.3d 1224, 1233 (9th Cir.

App. 63
2013) (en banc); Coleman v. Medtronic, Inc., 167 Cal.
Rptr. 3d 300, 311-12 (Ct. App. 2014).
Here, however, Plaintiffs fail to allege actual adverse events that Mentor did not report to the FDA.
Rather, Plaintiffs speculate that if Mentor had conducted its post-approval studies differently (e.g., increased follow-up with participants), then Mentor
would have identified additional adverse events that it
would have reported to the FDA. These conclusory and
speculative allegations are insufficient to state a parallel failure to warn claim. See Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). Moreover, to the
extent Plaintiffs base their failure to warn claims on
Mentor’s alleged failure to properly conduct the postapproval studies, Plaintiffs’ claims are impliedly preempted because Plaintiffs do not identify a parallel
state law duty to conduct post-approval studies. In addition, to the extent Plaintiffs argue that Mentor failed
to warn them or their doctors directly, such claims are
preempted because there are no such federal requirements. See Stengel, 704 F.3d at 1234 (Watford, J., concurring).
For their manufacturing defect claims to survive
express preemption under the MDA, Plaintiffs must
allege that Defendants “deviated from a particular premarket approval or other FDA requirement applicable
to the Class III medical device.” Weber v. Allergan, Inc.,
940 F.3d 1106, 1112 (9th Cir. 2019). They “cannot
simply demonstrate a defect or a malfunction and rely
on res ipsa loquitur to suggest only . . . that the thing

App. 64
speaks for itself.” Id. (citation and internal quotation
marks omitted).
Here, Plaintiffs fail to allege that Defendants violated a particular FDA requirement. For example,
Plaintiffs vaguely allege that Mentor’s MemoryGel
Silicone Breast Implants contained unidentified materials that differed from those approved by the FDA.
Further, Plaintiffs’ mere allegations “suggesting that
[their] particular breast implant[s] w[ere] defective
do[ ] not show that [Defendants] failed to comply with
the FDA’s Current Good Manufacturing Practices.” Id.
at 1114.
While we are sympathetic to Plaintiffs’ health
problems, they have not sufficiently alleged a state law
claim that squeezes through the “narrow gap” to escape MDA preemption. Perez, 711 F.3d at 1120 (citation omitted).
3. Finally, the district court did not abuse its discretion by dismissing Plaintiffs’ action without leave to
amend based on its determination that any amendment would be futile. See Ebner v. Fresh, Inc., 838 F.3d
958, 968 (9th Cir. 2016).
AFFIRMED.

App. 65
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
MARY SEWELL et al;
Plaintiffs,
v.
MENTOR WORLWIDE,
LLC; NUSIL, LLC; NUSIL
TECHNOLOGY, LLC; and
DOES 1100, inclusive,
Defendant.

Case No.
SA CV 19-01126-AB (PLAx)
ORDER DENYING
PLAINTIFFS’ MOTION TO REMAND
AND GRANTING
DEFENDANTS’ MOTIONS TO DISMISS
(Filed Aug. 27, 2019)

Before the Court are two motions filed by the parties.
On June 13, 2019 Defendants Mentor Worldwide,
LLC. (“Mentor”), NuSil LLC., and NuSil Technology
LLC (“NuSil”) filed a motion to dismiss (Dkt. No. 12).
Plaintiffs opposed the motion (Dkt. No. 14).
Plaintiffs filed a Motion to Remand (Dkt. No. 15)
and Defendants opposed the motion (Dkt. No. 19). The
Court deemed the matter appropriate for resolution
without oral argument, see Local Rule 7.15, and took
the matter under submission on August 9, 2019. For
the following reasons, Plaintiffs’ Motion to Remand
is DENIED and Defendants’ Motions to Dismiss is
GRANTED.

App. 66
I.

BACKGROUND

This lawsuit revolves around injuries Plaintiffs allegedly suffered after receiving surgical implants of
Mentors’ MemoryGel Silicone Breast Implants (“MemoryGel Implants”). Plaintiffs plead the following in
their Complaint (“Compl.,” Dkt. No. 1, Exhibit A).
A. The Parties
Mary Sewell and Tom Saunders are a married couple and citizens of Orange County, California. Compl.
¶ 1. Carole Little is a citizen and resident of El Dorado
County, California. Id. ¶ 2. Julia Maceo is a citizen and
resident of Sonoma County, California. Id. ¶ 3. Aurora
Victoria Corona Cattuzzo and Michael Anthony Cattuzzo are a married couple and citizens of Sacramento
County, California. Id. ¶ 4. Barbara Johncke and Anders Johncke are a married couple and citizens of Fairfield County, Connecticut. Id. ¶ 5. Marianne Curry and
Joseph Zacharzuk Jr. are a married couple and citizens
of Maui County, Hawaii. Id. ¶ 6. Tracie Leach and
Gregory Leach are a married couple and citizens of Noble County, Indiana. Id. ¶ 7. Lenie Valerie is a citizen
of Johnson County, Kansas. Id. ¶ 8. Deborah Michelle
Destasio and Joseph Destasio are a married couple and
citizens of Canadian County, Oklahoma. Id. ¶ 9. Stacey
Holder and Mark Clark Holden are a married couple
and citizens of Oklahoma County, Oklahoma. Id. ¶ 10.
Sheila Mathis and Randy Mathis are a married couple
and citizens of Young County, Texas. Id. ¶ 11. Kristina

App. 67
Ruiz and Steve Ruiz are a married couple and citizens
of Utah County, Utah. Id. ¶ 12.
Mentor is a limited liability company incorporated
in Delaware with its principal place of business in
Santa Barbara, California. Id. ¶ 13. Mentor manufactured the MemoryGel Implants at issue. Id. ¶ 14.
NuSil LLC is a limited liability company incorporated in California with its principal place of business
in Carpinteria, California. Id. ¶ 15.
NuSil Technology, LLC is a limited liability company incorporated in Delaware with its principal place
of business in Carpinteria, California. Id. ¶ 16. NuSil
LLC and NuSil Technology are silicone raw material
suppliers and allegedly manufactured, produced, supplied, and shipped the silicone used in the MemoryGel
Implants. Id. ¶ 18.
B. FDA Regulation of Silicone Breast Implants
In 1976, Congress passed the Medical Device
Amendments (“MDA”) to the Federal Food, Drug, and
Cosmetic Act (“FDCA”). See generally FAC. Under the
MDA, medical devices, such as the MemoryGel Implants, are subject to three classifications and regulated accordingly. Class I devices require the least and
most general oversight, Class II devices are reviewed
according to more stringent “special controls,” and
Class III devices receive the most oversight and require rigorous premarket review and approval. The

App. 68
Food and Drug Administration (“FDA”) classified silicone breast implants as Class III devices. Id. Accordingly, the FDA requires manufacturers to meet certain
requirements for Class III devices. On April 10, 1991,
the FDA published a final regulation under Section
515(b) of the FDCA requiring that manufacturers of
silicone breast implants submit pre-market approval
(“PMA”) applications with data showing a reasonable
assurance of safety and effectiveness of the implants
by July 9, 1991.
C. Mentor’s FDA Approval
In order to eventually seek PMA for its MemoryGel Implants, Mentor was required to first provide
the FDA with sufficient information regarding the
safety and efficacy of the medical device. Id. ¶ 92. On
December 12, 2003, Mentor submitted a request to
the FDA for PMA for its MemoryGel Implants. Id.
¶ 108. On November 17, 2006, Mentor received approval subject to certain conditions. Id. ¶ 109. One of
the conditions imposed on Mentor required it to conduct six post-approval studies1 to further characterize
the safety and effectiveness of MemoryGel Implants.
Id..

1

The FDA required Mentor to conduct: the core study, the
large post-approval study, the device-failure study, the focusgroup study, the informed-decision study, and the adjunct study.
Id.

App. 69
D. Plaintiffs’ MemoryGel Procedures
Sewell was implanted with MemoryGel Implants
on January 3, 2006. Id. ¶ 28. Sewell alleges that following implantation she experienced fatigue, muscle
pain and weakness, joint pain, swelling and stiffness,
vision issues, light sensitivity, numbness, skin rashes,
dizziness, nausea, chronic sore throats, chest pain, migraines. Id. ¶ 29. On March 13, 2017, Sewell underwent a bilateral explantation of her implants in
Newport Beach, California. Id. ¶ 30. A gel bleed/rupture of Sewell’s right implant was discovered during
the procedure. Id. After explantation, various defects
were found in Sewell’s implants. Id. ¶ 31.
Little was implanted with MemoryGel Implants in
May 2007. Id. ¶ 33. Following implantation, Little developed a number of illnesses and symptoms including,
among other things, rheumatoid arthritis, fatigue,
joint pain and stiffness, memory loss, shortness of
breath, cognitive dysfunction, chest pain, itching, nausea, dizziness, numbness, vision issues, light sensitivity, skin rashes, night sweats, dry eyes, metallic taste,
poor wound healing, and hair loss. Id. ¶ 35. On February 27, 2017, Little underwent a bilateral explantation
of her implants. Id. ¶ 36. A gel bleed/rupture of Little’s
implants was discovered during the procedure. Id. After explantation, various defects were found within
Little’s breast implants. Id. ¶ 37.
Maceo was implanted with MemoryGel Implants
in December 2006. Id. ¶ 39. Following implantation,
Maceo developed a number of illnesses and symptoms

App. 70
including, among other things, rheumatoid arthritis,
fatigue, joint pain and stiffness, muscle weakness,
memory loss, shortness of breath, cognitive dysfunction, chest pain, itching, nausea, dizziness, numbness,
vision issues, light sensitivity, skin rashes, night
sweats, dry eyes, metallic taste, poor wound healing,
and hair loss. Id. ¶ 40. On April 26, 2017, Maceo underwent a bilateral explantation. Id. ¶ 41. A gel/bleed rupture was discovered during the procedure. Id.
Cattuzzo was implanted with MemoryGel Implants on May 21, 2007. Id. ¶ 43. Following implantation, Cattuzzo developed a number of illnesses and
symptoms, including, among other things, rheumatoid
arthritis, autoimmune disorders, fatigue, joint pain
and stiffness, muscle weakness, memory loss, itching,
and allergies. Id. ¶ 44. On August 21, 2017, Cattuzzo
underwent a bilateral explantation of her implants. Id.
¶ 45. A gel bleed/rupture was discovered during the
procedure. Id. After explantation, various defects were
found within Cattuzzo’s implants. Id. ¶ 46.
Johncke was implanted with MemoryGel Implants on February 7, 2008. Id. ¶ 47. Following implantation, Johncke developed a number of illnesses and
symptoms, among other things, arthritis symptoms,
chronic fatigue, joint pain and stiffness, fibromyalgia,
muscle weakness, memory loss, cognitive dysfunction,
debilitating migraines, numbness, light sensitivity,
night sweats, autoimmune disorders, and hair loss. Id.
¶ 48. On August 25, 2017, Johncke underwent a bilateral explantation. Id. ¶ 49. A gel bleed/rupture was

App. 71
discovered. Id. After explantation, various defects were
found within Johnson’s right breast implant. Id. ¶ 50.
Curry was implanted with MemoryGel Implants
on April 11 2007. Id. ¶ 51. Following implantation,
Curry developed a number of illnesses and symptoms
including, among other things, tremors and other central nervous system problems, neurocognitive issues,
fatigue, Hashimoto’s thyroiditis, endocrine system disorders, vision problems, dry eyes, headaches, neck and
shoulder pain, elbow and thumb pain, breast pain,
breathing difficulties, and articular problems. Id. ¶ 52.
On May 5, 2017, Curry underwent a bilateral explantation. Id. ¶ 53. A gel bleed/rupture was discovered in
Curry’s left breast implant. Id. After explantation, various defects were found within Johnson’s right breast
implant. Id. ¶ 55.
Leach was implanted with MemoryGel Implants
in 2006. Id. ¶ 56. Following implantation, Leach developed a number of illnesses and symptoms including,
among other things, rheumatoid arthritis, fatigue,
joint pain and stiffness, muscle weakness, memory
loss, cognitive dysfunction, chest pain, itching, nausea,
dizziness, numbness, vision issues, light sensitivity,
skin rashes, and hair loss. Id. ¶ 57. On March 20, 2017,
Leach underwent a bilateral explantation. Id. ¶ 58. A
gel bleed/rupture was discovered in Curry’s left breast
implant. Id. After explantation, various defects were
found within Curry’s implants. Id. ¶ 59.
Lenie was implanted with MemoryGel Implants
on July 29, 2008. Id. ¶ 60. Following implantation,

App. 72
Lenie developed a number of illnesses and symptoms
including, among other things, fatigue, muscle pain
and weakness, joint pain, swelling and stiffness, ocular
migraines, memory loss, shortness of breath, dizziness,
numbness, vision issues, light sensitivity, skin rashes,
and night sweats. Id. ¶ 61. On September 26, 2017, Lenie underwent a bilateral explantation. Id. ¶ 62. A gel
bleed/rupture was discovered in Lenie’s left breast implant. Id. After explantation, various defects were
found within Lenie’s implants. Id. ¶ 63.
Destasio was implanted with MemoryGel Implants on September 6, 2007. Id. ¶ 64. Following implantation, Destasio developed a number of illnesses
and symptoms including, among other things, lupus,
rheumatoid arthritis, fatigue, muscle weakness, joint
pain and stiffness, memory loss, itching, nausea, dizziness, vision issues, light sensitivity, skin rashes, night
sweats, dry eyes, and chronic pain. Id. ¶ 65. On February 23, 2017, Destasio underwent a bilateral explantation. Id. ¶ 66. A gel bleed/rupture was discovered in
Destasio’s right breast implants. Id. After explantation, various defects were found within Destasio’s implant. Id. ¶ 67.
Holden was implanted with MemoryGel Implants
on August 27, 2013. Id. ¶ 68. Following implantation,
Holden developed a number of illnesses and symptoms
including, among other things, fatigue, muscle weakness, joint pain and stiffness, memory loss, itching,
skin rashes, autoimmune dysfunction, and hair loss.
Id. ¶ 69. On November 10, 2017, Holden underwent a
bilateral explantation. Id. ¶ 70. A gel bleed/rupture

App. 73
was discovered in Holden’s left breast implant. Id. After explantation, various defects were found within
Holden’s implants. Id. ¶ 71.
Mathis was implanted with MemoryGel Implants
on January 7, 2007. Id. ¶ 71. Following implantation,
Mathis developed a number of illnesses and symptoms
including, among other things, rheumatoid arthritis,
fatigue, joint pain and stiffness, muscle weakness,
memory loss, shortness of breath, cognitive dysfunction, chest pain, itching, nausea, dizziness, numbness,
vision issues, light sensitivity, skin rashes, night
sweats, dry eyes, metallic taste, poor wound healing,
and hair loss. Id. ¶ 73. On May 16, 2017, Mathis underwent a bilateral explantation. Id. ¶ 74. A gel bleed/rupture was discovered in Mathis’s left breast implant. Id.
After explantation, various defects were found within
Mathis’s implants. Id. ¶ 75.
Ruiz was implanted with MemoryGel Implants on
May 27, 2010. Id. ¶ 76. Following implantation, Mathis
developed a number of illnesses and symptoms including, among other things, rheumatoid arthritis, fatigue,
joint pain and stiffness, muscle weakness, memory
loss, shortness of breath, cognitive dysfunction, chest
pain, itching, nausea, dizziness, numbness, vision issues, light sensitivity, skin rashes, night sweats, dry
eyes, metallic taste, poor wound healing, and hair loss.
Id. ¶ 77. On December 27, 2016, Ruiz underwent a bilateral explantation. Id. ¶ 78. A gel bleed/rupture was
discovered during explantation. Id. After explantation,
various defects were found within Mathis’s implants.
Id. ¶ 79.

App. 74
Plaintiffs allege that the exposure to silicone gel
due to the rupture and leakage into their bodies caused
significant injuries. Id. ¶ 80. Plaintiffs further allege
they would not have received MemoryGel Implants if
they were aware of the true risks associated with rupture rate and injury. Id. ¶ 81.
E. This Action
On June 6, 2019, Plaintiffs filed a complaint in the
Orange County Superior Court asserting causes of action for: (1) negligence/negligence per se; (2) failure to
warn; and (3) manufacturing defect. On June 6, 2019,
Mentor filed a notice of removal in this Court and then
filed a motion to dismiss Plaintiffs’ complaint pursuant
to Federal Rule of Civil Procedure 12(b)(6). Plaintiffs
filed a motion to remand.
II.

LEGAL STANDARD
A. Motion to Dismiss Under 12(b)(6)

Federal Rule of Civil Procedure 8 requires a plaintiff to present a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). Under Rule 12(b)(6), a defendant may
move to dismiss a pleading for “failure to state a claim
upon which relief can be granted.” Fed. R. Civ. P.
12(b)(6).
To defeat a motion to dismiss under Rule 12(b)(6),
the complaint must provide enough details to “give the
defendant fair notice of what the . . . claim is and the

App. 75
grounds upon which it rests.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). The complaint must
also be “plausible on its face,” allowing the court to
“draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). “The plausibility standard is not
akin to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted unlawfully.” Id. at 678. Labels, conclusions, and “a formulaic recitation of the elements of a cause of action will
not do.” Twombly, 550 U.S. at 555.
When ruling on a Rule 12(b)(6) motion, “a judge
must accept as true all of the factual allegations contained in the complaint.” Erickson v. Pardus, 551 U.S.
89, 94 (2007). But a court is “not bound to accept as
true a legal conclusion couched as a factual allegation.”
Iqbal, 556 U.S. at 678 (internal quotation marks omitted).
B. Leave to Amend
Should a court dismiss certain claims, “[l]eave to
amend should be granted unless the district court ‘determines that the pleading could not possibly be cured
by the allegation of other facts.’ ” Knappenberger v. City
of Phoenix, 566 F.3d 936, 942 (9th Cir. 2009) (quoting
Lopez v. Smith, 203 F.3d 1122, 1127 (9th Cir. 2000) (en
banc)); see also Knevelbaard Dairies v. Kraft Foods,
Inc., 232 F.3d 979, 983 (9th Cir. 2000) (“An order granting such a motion must be accompanied by leave to
amend unless amendment would be futile”).

App. 76
C. Removal
Federal courts are courts of limited jurisdiction
and possess only that jurisdiction as authorized by the
Constitution and federal statute. Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994). Under
28 U.S.C. § 1441(a), a party may remove a civil action
only if the district court has original jurisdiction over
the issues alleged in the state court complaint. There
is a strong presumption that the Court is without jurisdiction until affirmatively proven otherwise. See
Fifty Assocs. v. Prudential Ins. Co. of America, 446 F.2d
1187, 1190 (9th Cir. 1970). When an action is removed
from state court, the removing party bears the burden
of demonstrating that removal is proper. Gaus v. Miles,
Inc., 980 F.2d 564, 566 (9th Cir. 1992).
Under the diversity statute, 28 U.S.C. § 1332, a
federal district court has original jurisdiction when the
parties are completely diverse and the amount in controversy exceeds $75,000. See 28 U.S.C. § 1332. Pursuant to 28 U.S.C. § 1441(a) and (b), a defendant may
remove an action from state court to federal court if the
diversity and amount in controversy requirements are
satisfied. Under 28 U.S.C. § 1441(b)(2), “[a] civil action
otherwise removable solely on the basis of the jurisdiction under section 1332(a) of this title may not be removed if any of the parties in interest properly joined
and served as defendants is a citizen of the State in
which such action is brought.” 28 U.S.C. § 1441(b)(2).
A non-diverse party may be disregarded for purposes of determining whether jurisdiction exists if the

App. 77
court determines that the party’s joinder was “fraudulent” or a “sham.” Ritchey v. Upjohn Drug Co., 139 F.3d
1313, 1318 (9th Cir. 1998). “Fraudulent joinder” occurs,
for the purpose of determining diversity jurisdiction,
where the plaintiff fails to state a cause of action
against the resident defendant, and the failure is obvious according to settled rules of the state. McCabe v.
Gen. Foods Corp., 811 F.2d 1336 (9th Cir. 1987). “But if
there is a possibility that a state court would find that
the complaint states a cause of action against any of
the resident defendants, the federal court must find
that the joinder was proper and remand the case to the
state court.” Grancare, LLC v. Thrower by & through
Mills, 889 F.3d 543, 548 (9th Cir. 2018) (quotations
omitted).
The defendant has a high burden of proof when
establishing fraudulent joinder. A removing defendant
may present evidence to prove fraudulent joinder, but
the district court must resolve all disputed questions
of fact in the plaintiff ’s favor. See Grancare, 889 F.3d
at 549. Thus, a defense should not require “a searching
inquiry into the merits of the plaintiff ’s case, even if
that defense, if successful, would prove fatal.” Id. In
this regard, “[r]emand must be granted unless the defendant shows that the plaintiff would not be afforded
leave to amend his complaint to cure [a] purported deficiency” in its allegations against the non-diverse defendant. Padilla v. AT & T Corp., 697 F. Supp. 2d 1156,
1159 (C.D. Cal. 2009) (quotations omitted). Ultimately,
“[f ]raudulent joinder must be proven by clear and

App. 78
convincing evidence.” Hamilton Materials, Inc. v. Dow
Chem. Corp., 494 F.3d 1203, 1206 (9th Cir. 2007).
III. DISCUSSION
A. The Court Has Subject Matter Jurisdiction
This dispute raises two issues concerning the
Court’s subject matter jurisdiction. First, Plaintiffs
argue Mentor’s Notice of Removal is untimely. Additionally, Defendants contend that complete diversity2
exists because NuSil LLC, a California corporation, is
fraudulently joined. The Court addresses each argument in turn.
1. Mentor’s Removal Was Timely
Plaintiffs first argue that Mentor’s removal was
untimely and improper because it was not based on
new grounds or new information. “[A] notice of removal
may be filed within 30 days after receipt by the defendant, through service or otherwise, of a copy of an
amended pleading, motion, order or other paper from
which it may first be ascertained that the case is one
which is or has been removable.” 28 U.S.C. 1446. The
thirty-day period applies even to cases which have
been previously been removed and remanded, so long
as the latter removal is “based on information not
2

There is no federal question jurisdiction in this matter as it
does not touch upon any area of federal law. Thus this Court only
has jurisdiction if all the requirements of diversity jurisdiction
are satisfied.

App. 79
available at the prior removal.” See Sweet v. United
Parcel Serv., Inc., 2009 WL 1664644 at * 3 (C.D. Cal.
June 15, 2009) (permitting subsequent removal and
denying motion to remand).
Mentor’s successive removal was timely and
proper. On May 9, 2019, Edward Scott Mraz, a member
of NuSil LLC since August 1, 2005, was deposed. See
Mentor Notice of Removal (Dkt. No. 1). Mraz testified,
among other things, that NuSil was a holding company
and had no involvement in the manufacturing of the
implants.3
Plaintiffs argue Mraz’s deposition did not reveal
additional facts to permit successive removal. To the
contrary, Mraz’s statements provided further clarity
regarding the status of NuSil LLC and its lack of involvement in the production of the silicone used in
Mentor’s MemoryGel Implants. After Mraz’s deposition, Defendants timely removed on the basis of this
new information. Accordingly, removal was timely and
the Court’s inquiry ends there.
2. NuSil LLC is Fraudulently Joined
Plaintiffs also assert there is not complete diversity of citizenship because NuSil LLC and Sewell are
both California citizens. In their Complaint, Plaintiffs aver that NuSil LLC manufactured a defective

3

The substance of Mraz’s deposition is discussed below.

App. 80
component of Mentor’s implants. In response, Mentor
contends NuSil LLC was fraudulently joined in the action.
In a product liability action, a plaintiff must establish “that the defendant produced, manufactured, sold,
or was in some way responsible for the [defective]
product.” Garcia v. Joseph Vince Co., 84 Cal. App. 3d
868, 874 (1984) (quotations omitted). Mentor argues
that NuSil LLC was not involved with the production
of the silicone used in its MemoryGel implants. Specifically, Mentor argues NuSil LLC is a holding company
with no operations, and thus could not have participated in the manufacture of Mentor’s allegedly defective implants. During his deposition, Mraz was asked
questions regarding NuSil LLC’s corporate structure.
Mraz Mraz confirmed that NuSil LLC is an investment
holding company that played no role in producing or
supplying any products used in the manufacture of
breast implants. Mraz clarified that the description of
NuSil LLC as a manufacturer of silicone products was
a clerical error that was subsequently corrected on corporate filings.
Sewell produces evidence contrary to Mr. Mraz’s
position and suggests there is a triable issue. In 2013,
NuSil LLC filed a Statement of Information with the
Secretary of State of California. The Statement of
Information is a short, two-page document which
identifies NuSil LLC as a “Manufacturer of Silicone
Products”. Mraz signed that Statement of Information
as CFO/President of NuSil. Under oath, Mraz testified

App. 81
that he would have reviewed the document for accuracy before signing.
Mentor claims that the 2013 Statement of Information contained a clerical error and points out that
NuSil has since filed an amended statement of information wherein it describes itself as an “Investment
holding entity.” Mentor argues this corrected Statement of Information “conclusively resolve[s]” the factual dispute this Court previously addressed in a
related matter.4
After a review of the amended Statement of Information and Mr. Mraz’s testimony at deposition, the
Court concludes that NuSil LLC did not manufacture
silicone and was not involved in the development of the
MemoryGel Implant. NuSil is not a proper defendant
in this lawsuit as there is no possibility that Plaintiff
could recover under a theory of product liability
against NuSil LLC.
B. Motion to Dismiss
In support of their motions to dismiss, Defendants
argue that Plaintiffs’ state-law claims are expressly
and impliedly preempted by the MDA. Because Plaintiffs’ claims against Mentor are preempted by the
MDA, Mentor’s motion to dismiss is GRANTED.

4

See Vieira v. Mentor Worldwide, LLC, et al., No. 2-18-cv06502-AB (PLAx) (C.D. Cal. Aug. 23, 2018)

App. 82
1. There Is No Presumption Against
Preemption That Applies Here
The Supremacy Clause of the Constitution provides that federal law preempts state law. Art. VI. cl. 2.
However, preemption analysis starts with the assumption that state laws are not preempted unless it was
intended by Congress. Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 230 (1947). Thus, legislative intent is the
“ultimate touchstone” of preemption analysis. Retail
Clerks v. Schermerhorn, 375 U.S. 96, 103 (1963). Congress’ intent to preempt state law may be expressed in
the statute’s language or implied in its statutory
framework Cipollone v. Liggett Group, Inc., 505 U.S.
504 (1992) (quoting Jones v. Rath Packing Co., 430 U.S.
519, 525 (1977)). When there is an express preemption
provision, the court does “not invoke any presumption
against pre-emption but instead ‘focus[es] on the plain
wording of the clause, which necessarily contains the
best evidence of Congress’ pre-emptive intent.’ ” Puerto
Rico v. Franklin Cal. Tax-Free Trust, 136 S. Ct. 1938,
1946 (2016) (quoting Chamber of Commerce of U.S. v.
Whiting, 536 U.S. 582, 594 (2011)).
Here, Plaintiffs claim Mentor’s motion does not
overcome this presumption against preemption because
Mentor failed to establish that Congress intended to
bar redress for injuries caused by Defendants’ FDA violations. The Supreme Court in Puerto Rico found that
where there is an express preemption provision there
is no presumption against preemption. 136 S. Ct. at
1946. “[F]ocus on the plain meaning of the clause

App. 83
which contains the best evidence of Congress’s preemptive intent.” Id.
It is well established that the MDA expressly
preempts state requirements that are “different from,
or in addition to” federal requirements and that was
the clear intention of Congress. Riegel v. Medtronic,
Inc., 552 U.S. 312, 316 (2008). Plaintiffs also cite to
Medtronic, Inc., v. Lohr, 518 U.S. 470, 487 (1996) for the
proposition that it is difficult to believe that Congress
would remove all means of judicial recourse for consumers injured by FDA approved devices. Contrary to
Plaintiffs’ position, “this is exactly what a pre-emption
clause for medical devices does by its terms.” Riegel,
552 U.S. at 326. Therefore, the presumption against
preemption does not apply here.
2. Plaintiffs Do Not Assert A Parallel
Claim That Survives Preemption
The MDA contains an express preemption provision that provides, as relevant here:
“No State . . . may establish or continue in effect with respect to a device intended for human use any requirement—
(1) which is different from, or in addition to,
any requirement applicable under this Act to
the device, and
(2) which relates to the safety or effectiveness of the device or to any other matter
included in a requirement applicable to

App. 84
the device under this chapter.” 21 U.S.C.
§ 360k(a).
The Supreme Court, in Riegel, applied a two-step
analysis to determine whether the MDA expressly
preempts a state law claim within the meaning of
§ 360k(a). First, a court must determine whether the
FDA has established requirements applicable to the
particular medical device at issue. Riegel, 552 U.S. at
321-22. Second, a court must determine whether the
state law claims are based on state requirements that
are “different from, or in addition to” the federal requirements, and relate to safety and effectiveness. Id.
State “requirements” also include the state’s commonlaw legal duties. Id. at 324-325 (“State tort law . . . disrupts the federal scheme no less than state regulatory
law to the same effect”).
However, the Supreme Court has made clear that
“§ 360k does not prevent a State from providing a damages remedy for claims premised on a violation of FDA
regulations; the state duties in such a case parallel, rather than add to, federal requirements.” Id. at 330; see
also Stengel v. Medtronic, Inc., 704 F.3d 1224, 1228 (9th
Cir. 2013) (en banc) (“[T]he MDA does not preempt a
state-law claim for violating a state-law duty that parallels a federal-law duty under the MDA”).
In order for a state requirement to be parallel to a
federal requirement, a plaintiff must show that the requirements are “genuinely equivalent.” Houston v.
Medtronic, 957 F. Supp. 2d 1166, 1174 (C.D. Cal. July
30, 2013) (quoting WolickiGables v. Arrow Int’l, Inc.,

App. 85
634 F.3d 1296, 1300 (11th Cir. 2001)). State and federal
requirements are not generally equivalent if a manufacturer could be held liable under state law without
having violated federal law. Id. at 1174.
The MDA also provides that all actions to enforce
FDA requirements “shall be by and in the name of the
United States.” 21 U.S.C. § 337(a). The Supreme Court
interpreted that the provision “leaves no doubt that it
is the Federal Government rather than private litigants who are authorized to file suit for noncompliance
with the medical device provisions.” Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 349 n. 4 (2001).
Thus, to avoid implied preemption, a cause of action
must rely on traditional state law and not be based
solely on a violation of federal law. Id. at 353.
The Ninth Circuit has recognized that there is a
‘narrow gap’ through which a state-law claim must fit
to escape preemption.” Perez v. Nidek Co., Ltd., 711
F.3d 1109, 1120 (9th Cir. 2013). “The plaintiff must be
suing for conduct that violates the FDCA (or else his
claim is expressly preempted by § 360k(a)), but the
plaintiff must not be suing because the conduct violates the FDCA (such a claim would be impliedly
preempted under Buckman).” Id. at 1120 (emphasis in
original) (citing In re Medtronic, Inc., Sprint Fidelis
Prods. Liab. Litig., 623 F.3d 1200, 1204) (8th Cir. 2010).
To avoid preemption, a plaintiff must assert a statelaw claim that is premised on a violation of federal law
but that is not based solely on such violation. Id.

App. 86
Here, Plaintiffs allege Mentor violated federal
laws and regulations that are parallel to violations of
California state law; however, Plaintiffs have not satisfied their pleading burden. As an initial matter, the
Court is not satisfied with Plaintiffs’ argument that
Mentor violated federal and state law by failing to report adverse events to the FDA. These allegations are
merely conclusory. Plaintiffs’ Complaint lacks any reference to the specific adverse events that Mentor failed
to report. Further, Plaintiffs do not specifically allege
that poor performance on post-approval studies is a violation of federal law. Additionally, the Court rejects
Plaintiffs’ claims that Mentor violated federal regulations and state law by defectively manufacturing
MemoryGel Implants. Plaintiffs, in conclusory fashion,
allege that Defendants’ MemoryGel Implant specifications are inconsistent with federal regulations; however, Plaintiffs fail to allege facts demonstrating that
Defendants’ specifications are inconsistent or violative
of federal standards. In short, a plaintiff “cannot
simply incant the magic words” that a defendant violated FDA regulations to avoid preemption. Simmons
v. Boston Scientific Corp., 2013 WL 1207421 at *4 (C.D.
Cal. Mar. 25, 2018) (quoting WolickiGables, 634 F.3d at
1301). Lastly, Plaintiffs fail to allege facts showing how
any federal violation caused their claimed injuries.
Plaintiffs have not asserted a parallel claim capable of
surviving preemption.
Plaintiffs claim that “discovery is necessary” to
provide a basis for their claims but Plaintiffs cannot be
permitted to engage in discovery when they have not

App. 87
met the most basic pleading standards. Nothing in
Plaintiffs’ allegations suggests discovery is needed to
resolve this Motion.
3. Plaintiffs Fail to Sufficiently Plead
Failure to Report
The FDA requires device manufacturers to report
any time its device “may have caused or contributed to
a death or serious injury.” 21 C.F.R. § 803.50(a). A claim
based on the failure to warn the FDA of adverse events
is not preempted to the extent state tort law recognizes
a parallel duty. De La Paz v. Bayer Healthcare LLC, 159
F. Supp. 3d 1085, 1096-97 (N.D. Cal. Feb. 2, 2016). However, a claim based on a failure to warn physicians or
patients of adverse events would be preempted. Id.; see
also Stengel, 704 F.3d at 1234. California law recognizes such a duty to warn. Coleman v. Medtronic, Inc.,
223 Cal.App.4th 413, 429 (2014). To state a failure to
warn claim under California law, a plaintiff “will ultimately have to prove that if [a defendant] had properly
reported the adverse events to the FDA as required under federal law, that information would have reached
[the plaintiff ’s] doctors in time to prevent [plaintiff ’s]
injuries.” Id. at 429-30 (quoting Stengel, 704 F.3d at
1234).
Here, Plaintiffs’ conclusory allegation that Mentor
failed to comply with federal requirements by not reporting adverse events is insufficient. Plaintiffs do not
point to any facts supporting their assertion. Plaintiffs
have not explained how any purported failure to report

App. 88
unspecified adverse events caused her injuries. In
turn, Plaintiffs allegations are based not on a failure
to report actual adverse events from the post-approval
studies but rather on a purported failure to properly
conduct those studies. “The alleged technical defects in
Mentor’s post-approval studies, however, do not constitute adverse events.” Ebrahimi v. Mentor Worldwide
LLC, 2018 WL 2448095, at *3 (C.D. Cal. May 25, 2018).
Plaintiffs cannot pursue a claim premised on a counterfactual assumption that Mentor would have identified additional adverse events if it had conducted the
studies more adequately. Any such claim is impermissibly speculative. Additionally, any claim premised on
Mentor’s alleged failure to conduct the post-approval
studies adequately is impliedly preempted, because
there is no state law duty to conduct post-approval
studies in the first instance.
Furthermore, Plaintiffs failure to report a claim
fails because they do not allege facts showing that the
FDA would have exercised its discretion to include additional adverse events in its publicly-accessible adverse-event database had Mentor reported the events.
Nor do Plaintiffs allege facts showing that their physicians relied on information in the adverse-event database when making decisions. Without such facts,
Plaintiffs cannot establish a causal nexus between
their alleged injuries and Mentor’s alleged failure to
report.
Plaintiffs deduce that if Mentor had conducted follow-up with participants enrolled in clinical studies
that there would have been adverse event reports

App. 89
showing heightened instances of rupture rates. No
facts support the conclusion that additional information from patients in post-approval studies would
reveal additional adverse events regarding ruptures or
would result in the FDA requiring different labeling.
Nor have Plaintiffs alleged any facts explaining how
Mentor’s purported failure to report adverse events
from its post-approval studies somehow caused their
injuries. Plaintiff ’s failure to report claim, thus, fails
for lack of proximate causation.
4. Plaintiffs’ Manufacturing
Claims Are Preempted

Defect

For manufacturing defects claims to survive
preemption, plaintiffs are required to allege “that the
manufacturing of the device both fell short of the FDA’s
requirement for manufacturing and—based on the
same deficiency—was defectively manufactured under
California law.” Funke v. Sorin Group USA, Inc., 147
F. Supp. 3d 1017, 1026 (C.D. Cal. Nov. 24, 2015). The
MDA provides that a device is defective if “the methods
used in, or the facilities or controls used for, its manufacture . . . are not in conformity” with the FDA’s requirements for that device. 21 U.S.C. § 351(h). Next, to
escape implied preemption, a plaintiff must allege that
the manufacturing defect caused her injuries. De La
Paz, 159 F. Supp. 3d at 1094; see also Erickson v. Boston
Scientific Corp., 846 F. Supp. 2d 1085, 1092 (C.D. Cal.
2011) (stating a plaintiff must establish a “causal
nexus between the alleged injury and the violation”).

App. 90
Here, Plaintiffs claim that Mentor’s implants differed in some undefined way from the manufacturing
and design specifications mandated by the FDA as part
of the PMA; that Mentor used unidentified material
and components that somehow differed from those approved by the FDA; that Mentor violated unspecified
provisions of applicable federal regulations, including
the FDA’s Quality System Regulations and design control requirements under 21 C.F.R. 820.30. But Plaintiffs “fail[ ] to adequately allege that the MemoryGel
Implants violated the FDA’s manufacturing requirements.” Ebrahimi v. Mentor Worldwide LLC, 2018 WL
6829122, at *2 (C.D. Cal. Dec. 27, 2018). Merely alleging that a defendant violated unspecified “law and
regulations” or produced a “noncomforming” device
does not sufficiently establish that the defendant violated a federal requirement. Instead a plaintiff must
identify specific regulatory violation at issue. In addition, Plaintiffs do not allege how any violation caused
their purported injuries; they simply conclude that
causation exists without providing any supporting explanation. More is needed.
5. Plaintiffs Fail To Explain How To
Cure The Pleading Deficiencies
Valid reasons for denying leave to amend include
undue delay, bad faith, repeated failure to cure deficiencies by amendments previously allowed, undue
prejudice, and futility. Foman v. Davis, 371 U.S. 178,
182 (1962); see also Klamath-Lake Pharm. Ass’n v. Klamath Med. Serv. Bureau, 701 F.2d 1276, 1292-93 (9th

App. 91
Cir. 1983) (holding that while leave to amend shall be
freely given, the court need not allow futile amendments). The Court denies leave to amend because
Plaintiffs have not explained how further amendment
could cure the pleading deficiencies in their Complaint.
IV. CONCLUSION
For the foregoing reasons, Plaintiffs’ Motion to Remand is DENIED. Defendant Mentor Worldwide’s Motion to Dismiss is GRANTED as to each of Plaintiffs’
claims. As amendment would be futile, Plaintiffs’ Complaint is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: August 27, 2019 /s/ André Birotte Jr.
HONORABLE
ANDRÉ BIROTTE JR.
UNITED STATES DISTRICT
COURT JUDGE

App. 92
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NICOLE VIEIRA;
EMILIA BAROZZI,

No. 19-56394

D.C. No.
Plaintiffs-Appellants, 2: 19-cv-04939-AB-PLA

v.

MEMORANDUM*

MENTOR WORLDWIDE, LLC; (Filed Feb. 5, 2021)
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Andre Birotte, Jr., District Judge, Presiding
Submitted February 3, 2021**
Pasadena, California
Before: GOULD, OWENS, and VANDYKE, Circuit
Judges.
Plaintiffs appeal from the district court’s judgment dismissing their action alleging state law claims
arising out of injuries they suffered after the implantation of MemoryGel Silicone Breast Implants manufactured by Mentor Worldwide, LLC (“Mentor”). The
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 93
breast implants at issue are a Class III medical device
approved by the Federal Drug Administration (“FDA”)
under the pre-market approval process of the Medical
Device Amendments (“MDA”) to the Food, Drug, and
Cosmetic Act (“FDCA”). We review de novo a district
court’s denial of a motion to remand Canela v. Costco
Wholesale Corp., 971 F.3d 845, 849 (9th Cir. 2020). We
review de novo a district court’s dismissal for failure to
state a claim pursuant to Federal Rule of Civil Procedure 12(b)(6), and for abuse of discretion the denial of
leave to amend. Curry v. Yelp Inc., 875 F.3d 1219, 1224
(9th Cir. 2017). As the parties are familiar with the
facts, we do not recount them here. We affirm.
1. The district court properly denied Plaintiffs’
motion to remand. Mentor’s removal was timely under
28 U.S.C. § 1446(b)(3) because the deposition transcript of Scott Mraz revealed sufficiently new information about NuSil, LLC (“NuSil”) to trigger the
removal. See Fritsch v. Swift Transp. Co. of Ariz., LLC,
899 F.3d 785, 789 (9th Cir. 2018); Carvalho v. Equifax
Info. Servs., LLC, 629 F.3d 876, 887 (9th Cir. 2010).
The district court properly determined that NuSil
was fraudulently joined, and therefore diversity jurisdiction existed. Fraudulent joinder may be established
“if a defendant shows that an ‘individual[ ] joined in the
action cannot be liable on any theory.’ ” Grancare, LLC
v. Thrower ex. rel. Mills, 889 F.3d 543, 548 (9th Cir.
2018) (citation omitted). “Fraudulent joinder must be
proven by clear and convincing evidence.” Hamilton
Materials, Inc. v. Dow Chem. Corp., 494 F.3d 1203, 1206
(9th Cir. 2007). Based on Mraz’s deposition testimony

App. 94
and the amended Statement of Information, Mentor
showed by clear and convincing evidence that NuSil
was not involved in manufacturing or supplying the
silicone used in Mentor’s allegedly defective implants,
and thus there was no possibility Plaintiffs could recover against NuSil. See DiCola v. White Brothers Performance Prods., Inc., 69 Cal. Rptr. 3d 888, 897 (Ct.
App. 2008).
2. The district court also properly dismissed
Plaintiffs’ state law claims as preempted by the MDA.
The MDA expressly preempts state law claims unless
they are premised on a “parallel” federal requirement.
See 21 U.S.C. § 360k(a); Riegel v. Medtronic, Inc., 552
U.S. 312, 330 (2008). Even if a state law claim is not
expressly preempted by the MDA, it may be impliedly
preempted. See 21 U.S.C. § 337(a); Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 352-53 (2001).
Thus, to escape preemption, a state law claim must fit
through a “narrow gap”: “The plaintiff must be suing
for conduct that violates the FDCA (or else his claim is
expressly preempted by § 360k(a)), but the plaintiff
must not be suing because the conduct violates the
FDCA (such a claim would be impliedly preempted under Buckman).” Perez v. Nidek Co., Ltd., 711 F.3d 1109,
1120 (9th Cir. 2013) (citation omitted).
Plaintiffs’ failure to warn claims are primarily
based on Mentor’s alleged failure to report adverse
events related to its MemoryGel Silicone Breast Implants to the FDA. In states that recognize failure to
report claims, such as California, a manufacturer’s failure to report adverse events to the FDA can form the

App. 95
basis of a parallel claim that survives preemption. See
Stengel v. Medtronic Inc., 704 F.3d 1224, 1233 (9th Cir.
2013) (en banc); Coleman v. Medtronic, Inc., 167 Cal.
Rptr. 3d 300, 311-12 (Ct. App. 2014).
Here, however, Plaintiffs fail to allege actual adverse events that Mentor did not report to the FDA.
Rather, Plaintiffs speculate that if Mentor had conducted its post-approval studies differently (e.g., increased follow-up with participants), then Mentor
would have identified additional adverse events that
it would have reported to the FDA. These conclusory
and speculative allegations are insufficient to state a
parallel failure to warn claim. See Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). Moreover, to the extent Plaintiffs base their failure to warn claims on
Mentor’s alleged failure to properly conduct the postapproval studies, Plaintiffs’ claims are impliedly preempted because Plaintiffs do not identify a parallel
state law duty to conduct post-approval studies. In addition, to the extent Plaintiffs argue that Mentor failed
to warn them or their doctors directly, such claims are
preempted because there are no such federal requirements. See Stengel, 704 F.3d at 1234 (Watford, J., concurring).
For their manufacturing defect claims to survive
express preemption under the MDA, Plaintiffs must
allege that Defendants “deviated from a particular premarket approval or other FDA requirement applicable
to the Class III medical device.” Weber v. Allergan, Inc.,
940 F.3d 1106, 1112 (9th Cir. 2019). They “cannot
simply demonstrate a defect or a malfunction and rely

App. 96
on res ipsa loquitur to suggest only . . . that the thing
speaks for itself.” Id. (citation and internal quotation
marks omitted).
Here, Plaintiffs fail to allege that Defendants violated a particular FDA requirement. For example,
Plaintiffs vaguely allege that Mentor’s MemoryGel
Silicone Breast Implants contained unidentified materials that differed from those approved by the FDA.
Further, Plaintiffs’ mere allegations “suggesting that
[their] particular breast implant[s] w[ere] defective
do[ ] not show that [Defendants] failed to comply with
the FDA’s Current Good Manufacturing Practices.” Id.
at 1114.
While we are sympathetic to Plaintiffs’ health
problems, they have not sufficiently alleged a state law
claim that squeezes through the “narrow gap” to escape MDA preemption. Perez, 711 F.3d at 1120 (citation omitted).
3. Finally, the district court did not abuse its discretion by dismissing Plaintiffs’ action without leave to
amend based on its determination that any amendment would be futile. See Ebner v. Fresh, Inc., 838 F.3d
958, 968 (9th Cir. 2016).
AFFIRMED.

App. 97
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
NICOLE VIEIRA, an
Case No.
individual; EMILIA BAROZZI, CV 19-04939-AB (PLAx)
an individual;
ORDER DENYING
Plaintiffs,
PLAINTIFFS’ MOTION TO REMAND
v.
AND GRANTING
MENTOR WORLDWIDE,
DEFENDANTS’ MOLLC; NUSIL, LLC; NUSIL
TION TO DISMISS
TECHNOLOGY, LLC; and
(Filed Aug. 1, 2019)
DOES 1-100, inclusive,
Defendants.
Before the Court are two motions filed by the Parties.
Defendants Mentor Worldwide, LLC (“Mentor”),
NuSil, LLC, and NuSil Technology, LLC (“NuSil Technology”) (collectively, “Defendants”) filed a Motion to
Dismiss (“MTD,” Dkt. No. 12). Plaintiffs Nicole Vieira
(“Vieira”) and Emilia Barozzi (“Barozzi”) (collectively,
“Plaintiffs”) filed an opposition (“Opp’n.,” Dkt. No. 16)
and Defendants filed a reply (Dkt. No. 17). The Court
heard oral argument on July 12, 2019 and took the motion under submission.
Plaintiffs filed a Motion to Remand (Dkt. No. 18).
Mentor opposed the motion (Dkt. No. 24) and filed supplemental authority in support of their opposition
(Dkt. No. 26). The Court took the motion under submission on July 31, 2019. For the following reasons,

App. 98
Plaintiffs’ Motion to Remand is DENIED and Defendants’ Motions to Dismiss is GRANTED.
I.

BACKGROUND

This lawsuit revolves around injuries Plaintiffs
allegedly suffered after surgically receiving Mentor’s
MemoryGel Silicone Breast Implants (“MemoryGel
Implants”). Plaintiffs plead the following in their First
Amended Complaint (“FAC,” Dkt. No. 1, Ex. A).
A. The Parties
Vieira is a citizen and resident of Solano County,
California. FAC ¶ 1. Barozzi is a citizen and resident
of Arapahoe County, Colorado. Id. ¶ 2.
Mentor is a limited liability company incorporated
in Delaware with its principal place of business in
Santa Barbara, California. Id. ¶ 3. Mentor manufactured the MemoryGel Implants at issue. Id. ¶ 4.
NuSil LLC is a limited liability company incorporated in California with its principal place of business
in Carpinteria, California. Id. ¶ 6. NuSil Technology is
a limited liability company incorporated in Delaware
with its principal place of business in Carpinteria, California. Id. ¶ 7. NuSil LLC and NuSil Technology are
silicone raw material suppliers and allegedly manufactured, produced, supplied, and shipped the silicone
used in the MemoryGel Implants. Id. ¶ 9.

App. 99
B. FDA Regulation of Silicone Breast Implants
In 1976, Congress passed the Medical Device
Amendments (“MDA”) to the Federal Food, Drug, and
Cosmetic Act (“FDCA”). Id. ¶ 36. Under the MDA, medical devices, such as the MemoryGel Implants, are subject to three classifications and regulated accordingly.
Id. ¶ 37. Class I devices require the least and most general oversight, Class II devices are reviewed according
to more stringent “special controls,” and Class III devices receive the most oversight and require rigorous
premarket review and approval. Id. The Food and
Drug Administration (“FDA”) classified silicone breast
implants as Class III devices. Id. ¶ 38. Accordingly, the
FDA requires manufacturers to meet certain requirements for Class III devices. Id. On April 10, 1991, the
FDA published a final regulation under Section 515(b)
of the FDCA requiring that manufacturers of silicone
breast implants submit pre-market approval (“PMA”)
applications with data showing a reasonable assurance of safety and effectiveness of the implants by July
9, 1991. Id. ¶ 39.
C. Mentor’s FDA Approval
In order to eventually seek PMA for its
MemoryGel Implants, Mentor was required to first
provide the FDA with sufficient information regarding
the safety and efficacy of the medical device. Id. ¶ 46.
On December 12, 2003, Mentor submitted a request to
the FDA for PMA for its MemoryGel Implants. On

App. 100
November 17, 2006, Mentor received approval subject
to certain conditions. Id. ¶¶ 62-63. One of the conditions imposed on Mentor required it to conduct six
post-approval studies1 to further characterize the
safety and effectiveness of MemoryGel Implants. Id.
¶ 63.
D. Plaintiffs’ MemoryGel Procedures
Vieira was implanted with MemoryGel Implants
on April 16, 2007. Id. ¶ 19. Vieira alleges that following
implantation she developed Hashimoto’s disease, experienced fatigue, memory loss, hair loss, light sensitivity, skin rashes, vision issues, numbness, dizziness,
nausea, chronic sore throats, chest pain, migraines,
joint pain, stiffness and swelling, muscle pain and
weakness.2 Id. ¶¶ 20-21. Vieira was unaware as to
what triggered her symptoms. Id. ¶ 21. Vieira’s injuries caused her to be bedridden; she subsequently
moved to her parent’s household in Vacaville, California for home care. Id. ¶ 22. On June 27, 2016, Vieira
underwent a bilateral explantation of her implants in
Los Angeles, California. Id. ¶ 23. A gel bleed was discovered in the right implant during the procedure. Id.
Within six months of explantation, Vieira saw relief of

1

The FDA required Mentor to conduct: the core study, the
large post-approval study, the device-failure study, the focusgroup study, the informed-decision study, and the adjunct study.
Id. ¶ 64.
2
At the time of her implantation and during the onset of her
symptoms, Vieira resided in Los Angeles County. Id. ¶ 21.

App. 101
approximately 80% of her symptoms and is now in remission from her Hashimoto’s disease. Id. ¶ 24.
Barozzi received MemoryGel Implants on April 12,
2012. Id. ¶ 26. Barozzi alleges that following implantation, she developed a rash on her chest and abdomen
along with dry eyes and mouth, experienced recurrent
sore throats, ear infections, and bladder infections. Id.
¶ 28. Barozzi’s pain increased over time. Id. Barozzi
also developed rheumatoid arthritis, experienced fatigue, joint pain and stiffness, muscle weakness,
memory loss, shortness of breath, cognitive dysfunction, chest pains, itching, nausea, dizziness, numbness,
vision issues, light sensitivity, night sweats, metallic
taste, poor wound healing, and hair loss. Id. ¶ 27. Barozzi was unaware as to what caused her injuries. Id.
¶ 28. On August 2, 2016, Barozzi underwent a bilateral
explantation of her implants. Id. ¶ 29. A gel bleed was
discovered during the procedure. Id. ¶ 29. After explantation, various defects were found in Barozzi’s implants. Id. ¶ 30.
E. This Action
Plaintiffs filed a FAC in the Los Angeles County
Superior Court asserting causes of action for: (1) negligence/negligence per se; (2) failure to warn; and (3)
manufacturing defect. Defendants filed a notice of removal in this Court and then filed a motion to dismiss
Plaintiffs’ FAC pursuant to Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim. Plaintiffs
filed a motion to remand.

App. 102
II.

LEGAL STANDARD
A. Motion to Dismiss Under 12(b)(6)

Federal Rule of Civil Procedure 8 requires a plaintiff to present a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). Under Rule 12(b)(6), a defendant may
move to dismiss a pleading for “failure to state a claim
upon which relief can be granted.” Fed. R. Civ. P.
12(b)(6).
To defeat a motion to dismiss under Rule 12(b)(6),
the complaint must provide enough details to “give the
defendant fair notice of what the . . . claim is and the
grounds upon which it rests.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). The complaint must
also be “plausible on its face,” allowing the court to
“draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). “The plausibility standard is not
akin to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted unlawfully.” Id. at 678. Labels, conclusions, and “a formulaic recitation of the elements of a cause of action will
not do.” Twombly, 550 U.S. at 555.
When ruling on a Rule 12(b)(6) motion, “a judge
must accept as true all of the factual allegations contained in the complaint.” Erickson v. Pardus, 551 U.S.
89, 94 (2007). But a court is “not bound to accept as
true a legal conclusion couched as a factual allegation.”
Iqbal, 556 U.S. at 678 (internal quotation marks omitted).

App. 103
B. Leave to Amend
Should a court dismiss certain claims, “[l]eave to
amend should be granted unless the district court ‘determines that the pleading could not possibly be cured
by the allegation of other facts.’ ” Knappenberger v. City
of Phoenix, 566 F.3d 936, 942 (9th Cir. 2009) (quoting
Lopez v. Smith, 203 F.3d 1122, 1127 (9th Cir. 2000) (en
banc)); see also Knevelbaard Dairies v. Kraft Foods,
Inc., 232 F. 3d 979, 983 (9th Cir. 2000) (“An order granting such a motion must be accompanied by leave to
amend unless amendment would be futile”).
C. Removal
Federal courts are courts of limited jurisdiction
and possess only that jurisdiction as authorized by the
Constitution and federal statute. Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377 (1994). Under
28 U.S.C. § 1441(a), a party may remove a civil action
only if the district court has original jurisdiction over
the issues alleged in the state court complaint. There
is a strong presumption that the Court is without jurisdiction until affirmatively proven otherwise. See
Fifty Assocs. v. Prudential Ins. Co. of America, 446 F.2d
1187, 1190 (9th Cir. 1970). When an action is removed
from state court, the removing party bears the burden
of demonstrating that removal is proper. Gaus v. Miles,
Inc., 980 F.2d 564, 566 (9th Cir. 1992).
Under the diversity statute, 28 U.S.C. § 1332, a
federal district court has original jurisdiction when the
parties are completely diverse and the amount in

App. 104
controversy exceeds $75,000. See 28 U.S.C. § 1332. Pursuant to 28 U.S.C. § 1441(a) and (b), a defendant may
remove an action from state court to federal court if the
diversity and amount in controversy requirements are
satisfied. Under 28 U.S.C. § 1441(b)(2), “[a] civil action
otherwise removable solely on the basis of the jurisdiction under section 1332(a) of this title may not be removed if any of the parties in interest properly joined
and served as defendants is a citizen of the State in
which such action is brought.” 28 U.S.C. § 1441(b)(2).
A non-diverse party may be disregarded for purposes of determining whether jurisdiction exists if the
court determines that the party’s joinder was “fraudulent” or a “sham.” Ritchey v. Upjohn Drug Co., 139 F.3d
1313, 1318 (9th Cir. 1998). “Fraudulent joinder” occurs,
for the purpose of determining diversity jurisdiction,
where the plaintiff fails to state a cause of action
against the resident defendant, and the failure is obvious according to settled rules of the state. McCabe v.
Gen. Foods Corp., 811 F.2d 1336 (9th Cir. 1987). “But if
there is a possibility that a state court would find that
the complaint states a cause of action against any of
the resident defendants, the federal court must find
that the joinder was proper and remand the case to the
state court.” Grancare, LLC v. Thrower by & through
Mills, 889 F.3d 543, 548 (9th Cir. 2018) (quotations
omitted).
The defendant has a high burden of proof when
establishing fraudulent joinder. A removing defendant
may present evidence to prove fraudulent joinder, but
the district court must resolve all disputed questions

App. 105
of fact in the plaintiff ’s favor. See Grancare, 889 F.3d
at 549. Thus, a defense should not require “a searching
inquiry into the merits of the plaintiff ’s case, even if
that defense, if successful, would prove fatal.” Id. In
this regard, “[r]emand must be granted unless the defendant shows that the plaintiff would not be afforded
leave to amend his complaint to cure [a] purported deficiency” in its allegations against the non-diverse defendant. Padilla v. AT & T Corp., 697 F. Supp. 2d 1156,
1159 (C.D. Cal. 2009) (quotations omitted). Ultimately,
“[f ]raudulent joinder must be proven by clear and convincing evidence.” Hamilton Materials, Inc. v. Dow
Chem. Corp., 494 F.3d 1203, 1206 (9th Cir. 2007).
III. DISCUSSION
A. Motion to Remand
1. Removal Was Timely And Proper
“A notice of removal may be filed within 30 days
after receipt by the defendant, through service or otherwise, of a copy of an amended pleading, motion, order
or other paper from which may first be ascertained
that the case is one which is or has become removable.”
28 U.S.C. § 1446. There are two thirty-day periods for
removal and the “second thirty-day period . . . enters
the picture only when . . . the original complaint does
note evidence its removability.” Kuxhausen v. BMW Financial Services NA LLC, 707 F.3d 1136, 1141 (9th Cir.
2013). “A second removal petition based on the same
grounds [as the first removal] does not ‘reinvest’ the
court’s jurisdiction.” Seedman v. U.S. Dist. Court for

App. 106
Cent. Dist. of California, 837 F.2d 413, 414 (9th Cir.
1988). Nevertheless, the second thirty-day period applies even to cases which have previously been removed and remanded, so long as the latter removal is
“based on information not available at the prior removal.” See Sweet v. United Parcel Serv., Inc., 2009 WL
1664644, at *3 (C.D. Cal. June 15, 2009). Successive removals are also permissible if “the first remand was on
grounds that subsequently became incorrect.” Taylor v.
Cox Commc’ns Cal., LLC, 673 F. App’x 734, 735 (9th
Cir. 2016) (internal quotation marks omitted).
Here, Mentor’s successive removal was timely and
proper as it was filed within thirty days of receipt of
Mr. Mraz’s deposition transcript. Following the prior
notice of removal, Mr. Mraz’s deposition provided evidence that NuSil LLC is a holding company and not a
manufacture of silicone. Mr. Mraz’s deposition seriously undermines Plaintiff ’s argument that NuSil
LLC is a properly named defendant and belongs in the
case. Plaintiffs were afforded the opportunity to test
the sufficiency of Mr. Mraz’s statements. See, e.g., Costa
v. Cnty. of Ventura, 680 F. App’x 545, 547 (9th Cir. 2017)
(explaining that a party must be afforded opportunity
to “test . . . declarations through depositions”). Yet,
Plaintiffs have not demonstrated that the information
contained in Mr. Mraz’s deposition is false. The Court
is satisfied that additional discovery will not change
the fact that NuSil LLC was not in the manufacture of
silicone products and is an improperly named defendant.

App. 107
2. NuSil LLC is Fraudulently Joined
Plaintiffs assert there is not complete diversity of
citizenship because NuSil LLC and Vieira are both
California citizens. In their Complaint, Plaintiffs aver
that NuSil LLC manufactured a defective component
of Mentor’s implants. In response, Mentor contends
that NuSil LLC was fraudulently joined in the action.
In a product liability action, a plaintiff must establish “that the defendant produced, manufactured, sold,
or was in some way responsible for the [defective] product.” Garcia v. Joseph Vince Co., 84 Cal. App. 3d 868,
874 (1978) (quotations omitted). Mentor argues that
NuSil LLC was not involved with the production of the
silicone used in its MemoryGel implants. Specifically,
Mentor argues NuSil LLC is a holding company with
no operations, and thus could not have participated in
the manufacture of Mentor’s allegedly defective implants. In support of this argument, Mentor submitted
to the Court the Deposition of Scott Mraz (“Mraz Dep.”,
Dkt. No. 1 Ex. M), an individual member of NuSil LLC
since August 1, 2005. Mr. Mraz testified that NuSil LLC
(1) is a holding company that transacts no business of
its own and whose sole purpose is to hold stock for its
members; (2) has not developed, designed, manufactured, supplied, or distributed any products, including
the silicone or silicone gel used to manufacture breast
implants; and (3) has no ownership interest in or control over the plant, equipment, and supplies that are
used to manufacture the silicone raw materials used in
breast implants. See Mraz Dep. at 18:7-21, 40:8-12,
40:2-7.

App. 108
Vieira produces evidence contrary to Mr. Mraz’s
position and suggests there is a triable issue. In 2013,
NuSil LLC filed a Statement of Information with the
Secretary of State of California.3 The Statement of
Information is a short, two-page document which identifies NuSil LLC as a “Manufacturer of Silicone Products”. Mraz signed that Statement of Information as
CFO/President of NuSil. Under oath, Mraz testified
that he would have reviewed the document for accuracy before signing.
Mentor claims that the 2013 Statement of Information contained a clerical error and points out that
NuSil has since filed an amended statement of information wherein it describes itself as an “Investment
holding entity.” See Dkt. No. 1 Ex. N. Mentor argues
this corrected Statement of Information “conclusively
resolve[s]” the factual dispute this Court previously
addressed in a related matter.4 Plaintiffs’ position is
bolstered by the declaration and deposition testimony
of Mr. Mraz.
After a review of the amended Statement of Information and Mr. Mraz’s testimony at deposition, the
3

The Court GRANTS Plaintiffs’ request for judicial notice.
Dkt. No. 1 Ex. N. The 2013 Statement of Information is a proper
subject of judicial notice under Federal Rule of Evidence 201. A
court may take judicial notice of matters of public record, and a
California Statement of Information is a matter of public record.
Khoury Invs. Inc. v. Nationwide Mut. Ins. Co, No. CV 13-05415MWF (Ex), 2013 WL 12140449, at *2 (C.D. Cal. Sept. 16, 2013).
4
See Vieira v. Mentor Worldwide, LLC, et al., No. 2-18-cv06502-AB (PLAx) (C.D. Cal. Aug. 23, 2018)

App. 109
Court concludes that NuSil LLC did not manufacture
silicone and was not involved in the development of the
MemoryGel Implant. NuSil is not a proper defendant
in this lawsuit as there is no possibility that Plaintiff
could recover under a theory of product liability
against NuSil LLC.
B. Motion to Dismiss
Defendants argue that Plaintiffs’ state-law claims
are expressly and impliedly preempted by the MDA.
Because Plaintiffs’ claims against Mentor are
preempted by the MDA, Mentor’s motion to dismiss is
GRANTED.
1. There Is No Presumption Against
Preemption That Applies Here
The Supremacy Clause of the Constitution provides that federal law preempts state law. Art. VI. cl. 2.
However, preemption analysis starts with the assumption that state laws are not preempted unless it was
intended by Congress. Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 230 (1947). Thus, legislative intent is the
“ultimate touchstone” of preemption analysis. Retail
Clerks v. Schermerhorn, 375 U.S. 96, 103 (1963). Congress’ intent to preempt state law may be expressed in
the statute’s language or implied in its statutory
framework. Cipollone v. Liggett Group, Inc., 505 U.S.
504 (1992) (quoting Jones v. Rath Packing Co., 430 U.S.
519, 525 (1977)). When there is an express preemption
provision, the court does “not invoke any presumption

App. 110
against pre-emption but instead ‘focus[es] on the plain
wording of the clause, which necessarily contains the
best evidence of Congress’ pre-emptive intent.’ ” Puerto
Rico v. Franklin Cal. Tax-Free Trust, 136 S. Ct. 1938,
1946 (2016) (quoting Chamber of Commerce of U.S. v.
Whiting, 563 U.S. 582, 594 (2011)).
Here, Plaintiffs claim Defendants’ motion does
not overcome this presumption against preemption
because Defendants failed to establish that Congress
intended to bar redress for injuries caused by Defendants’ FDA violations. The Supreme Court in
Puerto Rico found that where there is an express
preemption provision there is no presumption against
preemption. 136 S. Ct. at 1946. “[F]ocus on the plain
meaning of the clause which contains the best evidence
of Congress’s pre-emptive intent.” Id. It is well established that the MDA expressly preempts state requirements that are “different from, or in addition to”
federal requirements and that was the clear intention
of Congress. Riegel v. Medtronic, Inc., 552 U.S. 312, 316
(2008). Plaintiffs also cite to Medtronic, Inc. v. Lohr,
518 U.S. 470, 487 (1996) for the proposition that it is
difficult to believe that Congress would remove all
means of judicial recourse for consumers injured by
FDA approved devices. Contrary to Plaintiffs’ position,
“this is exactly what a pre-emption clause for medical
devices does by its terms.” Riegel, 552 U.S. at 326.
Therefore, the presumption against preemption does
not apply here.

App. 111
2. Plaintiffs Do Not Assert A Parallel
Claim That Survives Preemption
The MDA contains an express preemption provision that provides, as relevant here:
“[N]o State . . . may establish or continue in
effect with respect to a device intended for human use any requirement—
(1) which is different from, or in addition to,
any requirement applicable under this Act to
the device, and
(2) which relates to the safety or effectiveness of the device or to any other matter included in a requirement applicable to the
device under this chapter.” 21 U.S.C.
§ 360k(a).
The Supreme Court, in Riegel, applied a two-step
analysis to determine whether the MDA expressly
preempts a state law claim within the meaning of
§ 360k(a). First, a court must determine whether the
FDA has established requirements applicable to the
particular medical device at issue. Riegel, 552 U.S. at
321-22. Second, a court must determine whether the
state law claims are based on state requirements that
are “different from, or in addition to” the federal requirements, and relate to safety and effectiveness. Id.
State “requirements” also include the state’s commonlaw legal duties. Id. at 324-325 (“State tort law . . . disrupts the federal scheme no less than state regulatory
law to the same effect”).

App. 112
However, the Supreme Court has made clear that
“§ 360k does not prevent a State from providing a damages remedy for claims premised on a violation of FDA
regulations; the state duties in such a case parallel, rather than add to, federal requirements.” Id. at 330; see
also Stengel v. Medtronic, Inc., 704 F.3d 1224, 1228 (9th
Cir. 2013) (en banc) (“[T]he MDA does not preempt a
state-law claim for violating a state-law duty that parallels a federal-law duty under the MDA”).
In order for a state requirement to be parallel to a
federal requirement, a plaintiff must show that the requirements are “genuinely equivalent.” Houston v.
Medtronic, 957 F. Supp. 2d 1166, 1174 (C.D. Cal. 2013)
(quoting Wolicki-Gables v. Arrow Int’l, Inc., 634 F.3d
1296, 1300 (11th Cir. 2011)). State and federal requirements are not generally equivalent if a manufacturer
could be held liable under state law without having violated federal law. Id. at 1174.
The MDA also provides that all actions to enforce
FDA requirements “shall be by and in the name of the
United States.” 21 U.S.C. § 337(a). The Supreme Court
interpreted that the provision “leaves no doubt that it
is the Federal Government rather than private litigants who are authorized to file suit for noncompliance
with the medical device provisions.” Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 349 n. 4 (2001).
Thus, to avoid implied preemption, a cause of action
must rely on traditional state law and not be based
solely on a violation of federal law. Id. at 353.

App. 113
The Ninth Circuit has recognized that there is a
“ ‘narrow gap’ through which a state-law claim must
fit to escape preemption.” Perez v. Nidek Co., Ltd., 711
F.3d 1109, 1120 (9th Cir. 2013). “The plaintiff must be
suing for conduct that violates the FDCA (or else his
claim is expressly preempted by § 360k(a)), but the
plaintiff must not be suing because the conduct violates the FDCA (such a claim would be impliedly
preempted under Buckman).” Id. at 1120 (emphasis in
original) (citing In re Medtronic, Inc., Sprint Fidelis
Prods. Liab. Litig., 623 F.3d 1200, 1204 (8th Cir. 2010)).
To avoid preemption, a plaintiff must assert a statelaw claim that is premised on a violation of federal law
but that is not based solely on such violation. Id.
Here, Plaintiffs allege Mentor violated federal
laws and regulations that are parallel to violations of
California state law; however, Plaintiffs have not satisfied their pleading burden. As an initial matter, the
Court is not satisfied with Plaintiffs’ argument that
Mentor violated federal and state law by failing to report adverse events to the FDA. These allegations are
merely conclusory. Plaintiffs’ Complaint lacks any reference to the specific adverse events that Mentor failed
to report. Further, Plaintiffs do not specifically allege
that poor performance on post-approval studies is a
violation of federal law. Additionally, the Court rejects
Plaintiffs’ claims that Mentor violated federal regulations and state law by defectively manufacturing
MemoryGel Implants. Plaintiffs, in conclusory fashion,
allege that Defendants’ MemoryGel Implant specifications are inconsistent with federal regulations;

App. 114
however, Plaintiffs fail to allege facts demonstrating
that Defendants’ specifications are inconsistent or violative of federal standards. In short, a plaintiff “cannot
simply incant the magic words” that a defendant violated FDA regulations to avoid preemption. Simmons
v. Boston Scientific Corp., 2013 WL 1207421 at *4 (C.D.
Cal. Mar. 25, 2013) (quoting Wolicki-Gables, 634 F.3d
at 1301). Lastly, Plaintiffs fail to allege facts showing
how any federal violation caused their claimed injuries. Plaintiffs have not asserted a parallel claim capable of surviving preemption.
Finally, Plaintiffs claim that “discovery is necessary” to provide a basis for their claims but Plaintiffs
cannot be permitted to engage in discovery when they
have not met the most basic pleading standards. Nothing in Plaintiffs’ allegations suggests discovery is
needed to resolve this Motion.
3. Plaintiff Barozzi Cannot Assert a
Failure to Report Claim
“[A] federal court sitting in diversity applies the
choice-of-law rules of the forum” state. Narayan v.
EGL, Inc., 616 F.3d 895, 898 (9th Cir. 2010). California
employs a “governmental interest analysis” to resolve
choice of law issues. Offshore Rental Co., Inc. v. Continental Oil Co., 22 Cal. 3d 157, 161 (1978). “California
courts have tended to apply the law of the place of the
injured’s domicile, finding that state has the greatest
interest.” Kasel v. Remington Arms Co., 24 Cal App.3d
711, 734 (1972); see also Mazza v. Am. Honda Motor

App. 115
Co., 666 F.3d 581, 593 (9th Cir. 2012) (confirming that
under California’s choice of law rules, “the place of the
wrong has the predominant interest”).
Here, Plaintiff Barozzi resided in Colorado at all
relevant times—her alleged injuries all occurred there.
Colorado has the greatest interest in the application of
its law to Barozzi’s claims and its law therefore applies.
Thus, Plaintiff Barozzi is preempted from making a
failure to warn claim, because her home state of Colorado does not recognize such claims. Moreover, Plaintiff Barozzi cannot avoid preemption by arguing that
California law applies, because California has no comparable interest.
4. The Remaining Plaintiffs Fail to Sufficiently Plead Failure to Report
The FDA requires device manufacturers to report
any time its device “may have caused or contributed to
a death or serious injury.” 21 C.F.R. § 803.50(a). A claim
based on the failure to warn the FDA of adverse events
is not preempted to the extent state tort law recognizes
a parallel duty. De La Paz v. Bayer Healthcare LLC, 159
F. Supp. 3d 1085, 1096-97 (N.D. Cal. 2016). However, a
claim based on a failure to warn physicians or patients
of adverse events would be preempted. Id.; see also
Stengel, 704 F.3d at 1234. California law recognizes
such a duty to warn. Coleman v. Medtronic, Inc., 223
Cal. App. 4th 413, 429 (2014). To state a failure to
warn claim under California law, a plaintiff “will ultimately have to prove that if [a defendant] had properly

App. 116
reported the adverse events to the FDA as required under federal law, that information would have reached
[the plaintiff ’s] doctors in time to prevent [plaintiff ’s]
injuries.” Id. at 429-30 (quoting Stengel, 704 F.3d at
1234).
Here, Plaintiffs’ conclusory allegation that Mentor
failed to comply with federal requirements by not reporting adverse events is insufficient. Plaintiffs do not
point to any facts supporting her assertion. Plaintiffs
have not explained how any purported failure to report
the unspecified adverse events caused her injuries. In
turn, Plaintiffs allegations are based not on a failure
to report actual adverse events from the post-approval
studies but rather on a purported failure to properly
conduct those studies. “The alleged technical defects in
Mentor’s post-approval studies, however, do not constitute adverse events.” Ebrahimi v. Mentor Worldwide
LLC, 2018 WL 2448095, at *3 (C.D. Cal. May 25, 2018).
Plaintiffs cannot pursue a claim premised on a counterfactual assumption that Mentor would have identified additional adverse events if it had conducted the
studies more adequately. Any such claim is impermissibly speculative. Additionally, any claim premised on
Mentor’s alleged failure to conduct the post-approval
studies adequately is impliedly preempted, because
there is no state law duty to conduct post-approval
studies in the first instance.
Furthermore, Plaintiffs’ failure to report a claim
fails because they do not allege facts showing that the
FDA would have exercised its discretion to include additional adverse events in its publicly-accessible

App. 117
adverse-event database had Mentor reported the
events. Nor do Plaintiffs allege facts showing that their
treating physicians even relied on information in the
adverse event database making decisions. Without
such facts, Plaintiffs cannot establish a causal nexus
between their alleged injuries and Mentor’s alleged
failure to report.
Plaintiffs deduce that if Mentor had conducted
follow-up with participants enrolled in clinical studies
that there would have been adverse event reports
showing heightened instances of rupture rates. No
facts support the conclusion that additional information from patients in post-approval studies would
reveal additional adverse events regarding ruptures or
would result in the FDA requiring different labeling.
Nor has Plaintiff Vieira alleged any facts explaining
how Mentor’s purported failure to report adverse
events from its post-approval studies somehow caused
her injuries. Plaintiff Vieira’s failure to report claim,
thus, fails for lack of proximate causation.
5. Plaintiffs’ Manufacturing
Claims Are Preempted

Defect

For manufacturing defects claims to survive
preemption, plaintiffs are required to allege “that the
manufacturing of the device both fell short of the FDA’s
requirement for manufacturing and—based on the
same deficiency—was defectively manufactured under
California law.” Funke v. Sorin Group USA, Inc., 147
F. Supp. 3d 1017, 1026 (C.D. Cal. 2015). The MDA

App. 118
provides that a device is defective if “the methods used
in, or the facilities or controls used for, its manufacture
. . . are not in conformity” with the FDA’s requirements
for that device. 21 U.S.C. § 351(h). Next, to escape implied preemption, a plaintiff must allege that the manufacturing defect caused her injuries. De La Paz, 159
F. Supp. 3d at 1094; see also Erickson v. Boston Scientific Corp., 846 F. Supp. 2d 1085, 1092 (C.D. Cal. 2011)
(stating a plaintiff must establish a “causal nexus between the alleged injury and the violation”).
Here, Plaintiffs claim that Mentor’s implants differed in some undefined way from the manufacturing
and design specifications mandated by the FDA as part
of the PMA; that Mentor used unidentified material
and components that somehow differed from those approved by the FDA; that Mentor violated unspecified
provisions of applicable federal regulations, including
the FDA’s Quality System Regulations and design control requirements under 21 C.F.R. 820.30. But Plaintiffs “fail[ ] to adequately allege that the Implants
violated the FDA’s manufacturing requirements.”
Ebrahimi v. Mentor Worldwide LLC, 2018 WL 6829122,
at *2 (C.D. Cal. Dec. 27, 2018). Merely alleging that a
defendant violated unspecified “law and regulations”
or produced a “noncomforming” device does not sufficiently establish that the defendant violated a federal
requirement. Instead a plaintiff must identify specific
regulatory violation at issue. In addition, Plaintiffs do
not allege how any violation caused their purported
injuries; they simply conclude that causation exists

App. 119
without providing any supporting explanation. More is
needed.
6. Plaintiffs Fail To Explain How To
Cure The Pleading Deficiencies
Valid reasons for denying leave to amend include
undue delay, bad faith, repeated failure to cure deficiencies by amendments previously allowed, undue
prejudice, and futility. Foman v. Davis, 371 U.S. 178,
182 (1962); see also Klamath-Lake Pharm. Ass’n v.
Klamath Med. Serv. Bureau, 701 F.2d 1276, 1292-93
(9th Cir. 1983) (holding that while leave to amend shall
be freely given, the court need not allow futile amendments). The Court denies leave to amend because
Plaintiffs have not explained how further amendment
could cure the pleading deficiencies in their Complaint.
As Plaintiffs have had two opportunities to properly
plead their claims, the Court concludes that granting
further leave to amend would be futile. See Cafasso v.
Gen. Dynamics C4 Sys., Inc., 637 F.3d 1047, 1058 (9th
Cir. 2011) (“[T]he district court’s discretion to deny
leave to amend is particularly broad where plaintiff
has previously amended the complaint.”) (quoting
Ascon Props., Inc. v. Mobil Oil Co., 866 F.2d 1149, 1160
(9th Cir. 1989)).
IV. CONCLUSION
For the foregoing reasons, Plaintiffs’ Motion to Remand is DENIED. Defendant Mentor Worldwide’s Motion to Dismiss is GRANTED as to each of Plaintiffs’

App. 120
claims. As amendment would be futile, Plaintiffs’ Complaint is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED.
Dated: August 1, 2019

/s/ André Birotte Jr.
HONORABLE
ANDRÉ BIROTTE JR.
UNITED STATES DISTRICT
COURT JUDGE

App. 121
RELEVANT STATUTORY AND
REGULATORY PROVISIONS
21 U.S.C. § 337. Proceedings in name of United
States; provision as to subpoenas
(a) Except as provided in subsection (b), all such proceedings for the enforcement, or to restrain violations,
of this chapter shall be by and in the name of the
United States. Subpoenas for witnesses who are required to attend a court of the United States, in any
district, may run into any other district in any proceeding under this section.
(b)(1) A State may bring in its own name and within
its jurisdiction proceedings for the civil enforcement,
or to restrain violations, of section 341, 343(b), 343(c),
343(d), 343(e), 343(f ), 343(g), 343(h), 343(i), 343(k),
343(q), or 343(r) of this title if the food that is the subject of the proceedings is located in the State.
(2) No proceeding may be commenced by a State under paragraph (1) –
(A) before 30 days after the State has given notice to the Secretary that the State intends to
bring such proceeding,
(B) before 90 days after the State has given notice to the Secretary of such intent if the Secretary
has, within such 30 days, commenced an informal
or formal enforcement action pertaining to the
food which would be the subject of such proceeding, or
(C) if the Secretary is diligently prosecuting a
proceeding in court pertaining to such food, has

App. 122
settled such proceeding, or has settled the informal or formal enforcement action pertaining to
such food.
In any court proceeding described in subparagraph (C),
a State may intervene as a matter of right.

21 U.S.C. § 360h. Notification and other remedies
(a)

Notification

If the Secretary determines that –
(1) a device intended for human use which is introduced or delivered for introduction into interstate commerce for commercial distribution
presents an unreasonable risk of substantial harm
to the public health, and
(2) notification under this subsection is necessary to eliminate the unreasonable risk of such
harm and no more practicable means is available
under the provisions of this chapter (other than
this section) to eliminate such risk,
the Secretary may issue such order as may be necessary to assure that adequate notification is provided in
an appropriate form, by the persons and means best
suited under the circumstances involved, to all health
professionals who prescribe or use the device and to
any other person (including manufacturers, importers,
distributors, retailers, and device users) who should
properly receive such notification in order to eliminate
such risk. An order under this subsection shall require
that the individuals subject to the risk with respect to

App. 123
which the order is to be issued be included in the persons to be notified of the risk unless the Secretary determines that notice to such individuals would present
a greater danger to the health of such individuals than
no such notification. If the Secretary makes such a determination with respect to such individuals, the order
shall require that the health professionals who prescribe or use the device provide for the notification of
the individuals whom the health professionals treated
with the device of the risk presented by the device and
of any action which may be taken by or on behalf of
such individuals to eliminate or reduce such risk. Before issuing an order under this subsection, the Secretary shall consult with the persons who are to give
notice under the order.
(b)

Repair, replacement, or refund

(1)(A) If, after affording opportunity for an informal
hearing, the Secretary determines that –
(i) a device intended for human use which is
introduced or delivered for introduction into interstate commerce for commercial distribution presents an unreasonable risk of substantial harm to
the public health,
(ii) there are reasonable grounds to believe that
the device was not properly designed or manufactured with reference to the state of the art as it
existed at the time of its design or manufacture,
(iii) there are reasonable grounds to believe that
the unreasonable risk was not caused by failure of
a person other than a manufacturer, importer,

App. 124
distributor, or retailer of the device to exercise due
care in the installation, maintenance, repair, or
use of the device, and
(iv) the notification authorized by subsection (a)
would not by itself be sufficient to eliminate the
unreasonable risk and action described in paragraph (2) of this subsection is necessary to eliminate such risk,
the Secretary may order the manufacturer, importer,
or any distributor of such device, or any combination of
such persons, to submit to him within a reasonable
time a plan for taking one or more of the actions described in paragraph (2). An order issued under the
preceding sentence which is directed to more than one
person shall specify which person may decide which
action shall be taken under such plan and the person
specified shall be the person who the Secretary determines bears the principal, ultimate financial responsibility for action taken under the plan unless the
Secretary cannot determine who bears such responsibility or the Secretary determines that the protection
of the public health requires that such decision be
made by a person (including a device user or health
professional) other than the person he determines
bears such responsibility.
(B) The Secretary shall approve a plan submitted
pursuant to an order issued under subparagraph (A)
unless he determines (after affording opportunity for
an informal hearing) that the action or actions to be
taken under the plan or the manner in which such action or actions are to be taken under the plan will not

App. 125
assure that the unreasonable risk with respect to
which such order was issued will be eliminated. If the
Secretary disapproves a plan, he shall order a revised
plan to be submitted to him within a reasonable time.
If the Secretary determines (after affording opportunity for an informal hearing) that the revised plan is
unsatisfactory or if no revised plan or no initial plan
has been submitted to the Secretary within the prescribed time, the Secretary shall (i) prescribe a plan to
be carried out by the person or persons to whom the
order issued under subparagraph (A) was directed, or
(ii) after affording an opportunity for an informal hearing, by order prescribe a plan to be carried out by a
person who is a manufacturer, importer, distributor, or
retailer of the device with respect to which the order
was issued but to whom the order under subparagraph
(A) was not directed.
(2) The actions which may be taken under a plan
submitted under an order issued under paragraph (1)
are as follows:
(A) To repair the device so that it does not present the unreasonable risk of substantial harm
with respect to which the order under paragraph
(1) was issued.
(B) To replace the device with a like or equivalent device which is in conformity with all applicable requirements of this chapter.
(C) To refund the purchase price of the device
(less a reasonable allowance for use if such device
has been in the possession of the device user for
one year or more –

App. 126
(i) at the time of notification ordered under
subsection (a), or
(ii) at the time the device user receives actual notice of the unreasonable risk with respect to which the order was issued under
paragraph (1),
whichever first occurs).
(3) No charge shall be made to any person (other
than a manufacturer, importer, distributor or retailer)
for availing himself of any remedy, described in paragraph (2) and provided under an order issued under
paragraph (1), and the person subject to the order shall
reimburse each person (other than a manufacturer, importer, distributor, or retailer) who is entitled to such a
remedy for any reasonable and foreseeable expenses
actually incurred by such person in availing himself of
such remedy.
(c)

Reimbursement

An order issued under subsection (b) with respect to a
device may require any person who is a manufacturer,
importer, distributor, or retailer of the device to reimburse any other person who is a manufacturer, importer, distributor, or retailer of such device for such
other person’s expenses actually incurred in connection with carrying out the order if the Secretary determines such reimbursement is required for the
protection of the public health. Any such requirement
shall not affect any rights or obligations under any contract to which the person receiving reimbursement or
the person making such reimbursement is a party.

App. 127
(d)

Effect on other liability

Compliance with an order issued under this section
shall not relieve any person from liability under Federal or State law. In awarding damages for economic
loss in an action brought for the enforcement of any
such liability, the value to the plaintiff in such action
of any remedy provided him under such order shall be
taken into account.
(e)

Recall authority

(1) If the Secretary finds that there is a reasonable
probability that a device intended for human use
would cause serious, adverse health consequences or
death, the Secretary shall issue an order requiring the
appropriate person (including the manufacturers, importers, distributors, or retailers of the device) –
(A) to immediately cease distribution of such device, and
(B) to immediately notify health professionals
and device user facilities of the order and to instruct such professionals and facilities to cease use
of such device.
The order shall provide the person subject to the order
with an opportunity for an informal hearing, to be held
not later than 10 days after the date of the issuance of
the order, on the actions required by the order and on
whether the order should be amended to require a recall of such device. If, after providing an opportunity
for such a hearing, the Secretary determines that

App. 128
inadequate grounds exist to support the actions required by the order, the Secretary shall vacate the order.
(2)(A) If, after providing an opportunity for an informal hearing under paragraph (1), the Secretary determines that the order should be amended to include a
recall of the device with respect to which the order was
issued, the Secretary shall, except as provided in subparagraphs (B) and (C), amend the order to require a
recall. The Secretary shall specify a timetable in which
the device recall will occur and shall require periodic
reports to the Secretary describing the progress of the
recall.
(B)

An amended order under subparagraph (A) –
(i)

shall –
(I) not include recall of a device from individuals, and
(II) not include recall of a device from device
user facilities if the Secretary determines that
the risk of recalling such device from the facilities presents a greater health risk than the
health risk of not recalling the device from
use, and

(ii) shall provide for notice to individuals subject
to the risks associated with the use of such device.
In providing the notice required by clause (ii), the Secretary may use the assistance of health professionals
who prescribed or used such a device for individuals. If
a significant number of such individuals cannot be

App. 129
identified, the Secretary shall notify such individuals
pursuant to section 375(b) of this title.
(3) The remedy provided by this subsection shall be
in addition to remedies provided by subsections (a), (b),
and (c).

21 U.S.C. § 360i. Records and reports on devices
(a)

General rule

Every person who is a manufacturer or importer of a
device intended for human use shall establish and
maintain such records, make such reports, and provide
such information, as the Secretary may by regulation
reasonably require to assure that such device is not
adulterated or misbranded and to otherwise assure its
safety and effectiveness. Regulations prescribed under
the preceding sentence –
(1) shall require a device manufacturer or importer to report to the Secretary whenever the
manufacturer or importer receives or otherwise
becomes aware of information that reasonably
suggests that one of its marketed devices –
(A) may have caused or contributed to a
death or serious injury, or
(B) has malfunctioned and that such device
or a similar device marketed by the manufacturer or importer would be likely to cause or
contribute to a death or serious injury if the
malfunction were to recur, which report under
this subparagraph –

App. 130
(i) shall be submitted in accordance
with part 803 of title 21, Code of Federal
Regulations (or successor regulations),
unless the Secretary grants an exemption
or variance from, or an alternative to, a
requirement under such regulations pursuant to section 803.19 of such part, if the
device involved is –
(I)

a class III device;

***
(2) shall define the term “serious injury” to mean
an injury that –
(A)

is life threatening,

(B) results in permanent impairment of a
body function or permanent damage to a body
structure, or
(C) necessitates medical or surgical intervention to preclude permanent impairment of
a body function or permanent damage to a
body structure;
(3) shall require reporting of other significant
adverse device experiences as determined by the
Secretary to be necessary to be reported;
(4) shall not impose requirements unduly burdensome to a device manufacturer or importer
taking into account his cost of complying with such
requirements and the need for the protection of
the public health and the implementation of this
chapter;

App. 131
(5) which prescribe the procedure for making requests for reports or information shall require
that each request made under such regulations for
submission of a report or information to the Secretary state the reason or purpose for such request
and identify to the fullest extent practicable such
report or information;
(6) which require submission of a report or information to the Secretary shall state the reason or
purpose for the submission of such report or information and identify to the fullest extent practicable such report or information;
***
(b)

User reports

(1)(A) Whenever a device user facility receives or
otherwise becomes aware of information that reasonably suggests that a device has or may have caused or
contributed to the death of a patient of the facility, the
facility shall, as soon as practicable but not later than
10 working days after becoming aware of the information, report the information to the Secretary and, if
the identity of the manufacturer is known, to the manufacturer of the device. In the case of deaths, the Secretary may by regulation prescribe a shorter period for
the reporting of such information.
(B) Whenever a device user facility receives or otherwise becomes aware of –
(i) information that reasonably suggests that a
device has or may have caused or contributed to

App. 132
the serious illness of, or serious injury to, a patient
of the facility, or
(ii) other significant adverse device experiences
as determined by the Secretary by regulation to be
necessary to be reported,
the facility shall, as soon as practicable but not later
than 10 working days after becoming aware of the information, report the information to the manufacturer
of the device or to the Secretary if the identity of the
manufacturer is not known.
(C) Each device user facility shall submit to the Secretary on an annual basis a summary of the reports
made under subparagraphs (A) and (B). Such summary shall be submitted on January 1 of each year. The
summary shall be in such form and contain such information from such reports as the Secretary may require
and shall include –
(i) sufficient information to identify the facility
which made the reports for which the summary is
submitted,
(ii) in the case of any product which was the subject of a report, the product name, serial number,
and model number,
(iii) the name and the address of the manufacturer of such device, and
(iv) a brief description of the event reported to
the manufacturer.
(D) For purposes of subparagraphs (A), (B), and (C),
a device user facility shall be treated as having

App. 133
received or otherwise become aware of information
with respect to a device of that facility when medical
personnel who are employed by or otherwise formally
affiliated with the facility receive or otherwise become
aware of information with respect to that device in the
course of their duties.
***
(3)

No report made under paragraph (1) by –
(A)

a device user facility,

(B) an individual who is employed by or otherwise formally affiliated with such a facility, or
(C) a physician who is not required to make such
a report,
shall be admissible into evidence or otherwise used in
any civil action involving private parties unless the facility, individual, or physician who made the report had
knowledge of the falsity of the information contained
in the report.
(4) A report made under paragraph (1) does not affect any obligation of a manufacturer who receives the
report to file a report as required under subsection (a).
***
(6)

For purposes of this subsection:
(A) The term “device user facility” means a hospital, ambulatory surgical facility, nursing home,
or outpatient treatment facility which is not a physician’s office. The Secretary may by regulation

App. 134
include an outpatient diagnostic facility which is
not a physician’s office in such term.
(B) The terms “serious illness” and “serious injury” mean illness or injury, respectively, that –
(i)

is life threatening,

(ii) results in permanent impairment of a
body function or permanent damage to a body
structure, or
(iii) necessitates medical or surgical intervention to preclude permanent impairment of
a body function or permanent damage to a
body structure.
***
(e)

Device tracking

(1) The Secretary may by order require a manufacturer to adopt a method of tracking a class II or class
III device –
(A) the failure of which would be reasonably
likely to have serious adverse health consequences; or
(B)

which is –
(i) intended to be implanted in the human
body for more than one year, or
(ii) a life sustaining or life supporting device
used outside a device user facility.

(2) Any patient receiving a device subject to tracking
under paragraph (1) may refuse to release, or refuse

App. 135
permission to release, the patient’s name, address, social security number, or other identifying information
for the purpose of tracking.
***
(g)

Reports of removals and corrections

(1) Except as provided in paragraph (2), the Secretary shall by regulation require a manufacturer or importer of a device to report promptly to the Secretary
any correction or removal of a device undertaken by
such manufacturer or importer if the removal or correction was undertaken –
(A)
or

to reduce a risk to health posed by the device,

(B) to remedy a violation of this chapter caused
by the device which may present a risk to health.
A manufacturer or importer of a device who undertakes a correction or removal of a device which is not
required to be reported under this paragraph shall
keep a record of such correction or removal.
(2) No report of the corrective action or removal of a
device may be required under paragraph (1) if a report
of the corrective action or removal is required and has
been submitted under subsection (a).
(3) For purposes of paragraphs (1) and (2), the terms
“correction” and “removal” do not include routine servicing.

App. 136
(h) Inclusion of devices in the postmarket risk
identification and analysis system
(1)

In general
(A)

Application to devices

The Secretary shall amend the procedures established and maintained under clauses (i),
(ii), (iii), and (v) of section 355(k)(3)(C) of
this title in order to expand the postmarket
risk identification and analysis system established under such section to include and apply
to devices.
(B)

Exception

Subclause (II) of clause (i) of section
355(k)(3)(C) of this title shall not apply to
devices.
(C)

Clarification

With respect to devices, the private sector
health-related electronic data provided under
section 355(k)(3)(C)(i)(III)(bb) of this title may
include medical device utilization data, health
insurance claims data, and procedure and device registries.
(2)

Data

In expanding the system as described in paragraph (1)(A), the Secretary shall use relevant data
with respect to devices cleared under section
360(k) of this title or approved under section 360e
of this title, including claims data, patient survey

App. 137
data, and any other data deemed appropriate by
the Secretary.
***

21 U.S.C. § 360k. State and local requirements respecting devices
(a)

General rule

Except as provided in subsection (b), no State or political subdivision of a State may establish or continue in
effect with respect to a device intended for human use
any requirement –
(1) which is different from, or in addition to, any
requirement applicable under this chapter to the
device, and
(2) which relates to the safety or effectiveness of
the device or to any other matter included in a requirement applicable to the device under this
chapter.
(b)

Exempt requirements

Upon application of a State or a political subdivision
thereof, the Secretary may, by regulation promulgated
after notice and opportunity for an oral hearing, exempt from subsection (a), under such conditions as
may be prescribed in such regulation, a requirement of
such State or political subdivision applicable to a device intended for human use if –

App. 138
(1) the requirement is more stringent than a requirement under this chapter which would be applicable to the device if an exemption were not in
effect under this subsection; or
(2)

the requirement –
(A) is required by compelling local conditions, and
(B) compliance with the requirement would
not cause the device to be in violation of
any applicable requirement under this chapter.

21 C.F.R. § 803.50 If I am a manufacturer, what reporting requirements apply to me?
(a) If you are a manufacturer, you must report to us
the information required by § 803.52 in accordance
with the requirements of § 803.12(a), no later than 30
calendar days after the day that you receive or otherwise become aware of information, from any source,
that reasonably suggests that a device that you market:
(1) May have caused or contributed to a death or
serious injury or
(2) Has malfunctioned and this device or a similar device that you market would be likely to cause
or contribute to a death or serious injury, if the
malfunction were to recur.

App. 139
(b) What information does FDA consider “reasonably
known” to me?
(1) You must submit all information required in
this subpart E that is reasonably known to you.
We consider the following information to be reasonably known to you:
(i) Any information that you can obtain by contacting a user facility, importer, or other initial reporter;
(ii)

Any information in your possession; or

(iii) Any information that you can obtain by analysis, testing, or other evaluation of the device.
(2) You are responsible for obtaining and submitting to us information that is incomplete or missing from reports submitted by user facilities,
importers, and other initial reporters.
(3) You are also responsible for conducting an investigation of each event and evaluating the cause
of the event. If you cannot submit complete information on a report, you must provide a statement
explaining why this information was incomplete
and the steps you took to obtain the information.
If you later obtain any required information that
was not available at the time you filed your initial
report, you must submit this information in a supplemental report under § 803.56 in accordance
with the requirements of § 803.12(a).

